          AUDIT OF THE 

FEDERAL BUREAU OF INVESTIGATION 

  ANNUAL FINANCIAL STATEMENTS 

       FISCAL YEAR 2013 


        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 14-10 

              February 2014 

       AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION

               ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2013


                 OFFICE OF THE INSPECTOR GENERAL

                    COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the Federal
Bureau of Investigation (FBI) for the fiscal years (FY) ended September 30, 2013,
and September 30, 2012. Under the direction of the Office of the Inspector General
(OIG), KPMG LLP performed the FBI’s audit in accordance with auditing standards
generally accepted in the United States of America. Effective for FY 2013, auditing
standards generally accepted in the United States of America use the term
“unmodified” opinion instead of “unqualified” opinion. The definition of the two
terms is substantially the same. An unmodified opinion means that the financial
statements are presented fairly, in all material respects, in accordance with
U.S. generally accepted accounting principles. The FY 2013 audit resulted in an
unmodified opinion on the financial statements. For FY 2012, the FBI received an
unqualified opinion on its financial statements (OIG Audit Report No. 13-11).

       KPMG LLP also issued reports on internal control over financial reporting and
on compliance and other matters. The auditors did not identify any material
weaknesses, nor did they report any significant deficiencies in the FY 2013
Independent Auditors’ Report on Internal Control over Financial Reporting Based on
an Audit of Financial Statements Performed in Accordance with Government
Auditing Standards. However, in the FY 2013 Independent Auditors’ Report on
Compliance and Other Matters Based on an Audit of Financial Statements
Performed in Accordance with Government Auditing Standards, the auditors noted
that the FBI’s financial management systems did not substantially comply with
federal financial management system requirements and the application of the
U.S. Government Standard General Ledger at the transaction level as required by
the Federal Financial Management Improvement Act of 1996 (FFMIA). This non­
compliance with the FFMIA was also reported for FY 2012.

       The OIG reviewed KPMG LLP’s reports and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated from an
audit in accordance with Government Auditing Standards, was not intended to
enable us to express, and we do not express, an opinion on the FBI’s financial
statements, conclusions about the effectiveness of internal control, conclusions on
whether the FBI’s financial management systems substantially complied with the
Federal Financial Management Improvement Act of 1996, or conclusions on
compliance and other matters. KPMG LLP is responsible for the attached auditors’
reports dated December 2, 2013, and the conclusions expressed in the reports.



                                        -i­
However, our review disclosed no instances where KPMG LLP did not comply, in all
material respects, with auditing standards generally accepted in the United States
of America.




                                       - ii ­
       AUDIT OF THE FEDERAL BUREAU OF INVESTIGATION

               ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2013


                               TABLE OF CONTENTS


                                                                                         PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS ................................................... 3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON THE FINANCIAL STATEMENTS .................................................. 25


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

     BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN

     ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS .................... 29


  REPORT ON COMPLIANCE AND OTHER MATTERS

      BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN

      ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS .................... 31


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS............................................................. 39


  CONSOLIDATED STATEMENTS OF NET COST ............................................... 40


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION...................... 41


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ................................. 42


  NOTES TO THE FINANCIAL STATEMENTS .................................................... 43


REQUIRED SUPPLEMENTARY INFORMATION


  COMBINING STATEMENTS OF BUDGETARY RESOURCES

      BY MAJOR APPROPRIATION................................................................ 70


OTHER INFORMATION


  COMBINED SCHEDULE OF SPENDING ......................................................... 75

This page intentionally left blank. 

U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



  MANAGEMENT’S DISCUSSION AND ANALYSIS
             (UNAUDITED)




                  -1-
This page intentionally left blank. 





            -2-
                 Management’s Discussion and Analysis


                                    U.S. DEPARTMENT OF JUSTICE

                                 FEDERAL BUREAU OF INVESTIGATION

                               MANAGEMENT’S DISCUSSION AND ANALYSIS

                                            (UNAUDITED)


MISSION

The Federal Bureau of Investigation (FBI or Bureau) is a component of the United States (U.S.) Department
of Justice (DOJ or the Department) and a member of the U.S. Intelligence Community (IC). The mission of
the FBI is to protect and defend the U.S. against terrorist and foreign intelligence threats, to uphold and
enforce the criminal laws of the U.S., and to provide leadership and criminal justice services to federal, state,
municipal, and international agencies and partners.
The FBI priorities, established by former Director Robert Mueller, guide how the FBI addresses its wide
range of responsibilities. In executing the following priorities, the FBI produces and uses intelligence to
protect the nation from threats and to bring justice to those who violate the law. The first eight priorities are
listed in order of precedence. The final two are all-encompassing functions that support the Bureau’s
mission and objectives. The ten priorities are:
        1. Protect the U.S. from terrorist attack;
        2. Protect the U.S. against foreign intelligence operations and espionage;
        3. Protect the U.S. against cyber-based attacks and high-technology crimes;
        4. Combat public corruption at all levels;
        5. Protect civil rights;
        6. Combat transnational and national criminal organizations and enterprises;
        7. Combat major white-collar crime;
        8. Combat significant violent crime;
        9. Support federal, state, local, and international partners; and
        10. Upgrade technology to successfully perform the FBI's mission.
The methodology by which the FBI allocates gross costs and earned revenue across the three Strategic Goals
(SGs or Goals) is consistent with the methodology used to allocate the FBI’s budget to the three SGs in the
Fiscal Year (FY) 2014 Authorization and Budget Request to Congress. The three SGs are:
        Goal 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of Law;
        Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law; and
        Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice
        at the Federal, State, Local, Tribal, and International Levels.
Priorities 1 through 3 support Goal 1, priorities 3 through 8 support Goal 2, and priorities 9 and 10 support
all three Goals.




Federal Bureau of Investigation                       -3-
                Management’s Discussion and Analysis


ORGANIZATION STRUCTURE
Along with the FBI’s headquarters (HQ or Headquarters) located in Washington, D.C., the FBI operates 56
field offices and approximately 360 resident agencies across the U.S. and its territories. The FBI also
operates more than 60 Legal Attaché (Legat) offices and more than 15 sub-offices in 74 foreign countries
worldwide.
As the FBI has grown, some Headquarters functions have moved to other locations. The Criminal Justice
Information Services Division (CJIS) is located in Clarksburg, West Virginia. The Laboratory Division,
Operational Technology Division, Critical Incident Response Group (CIRG), and the FBI Academy are
located in Quantico, Virginia. Other specialized facilities, such as Regional Computer Forensic Laboratories,
are located at various locations across the country.
FBI HQ provides centralized operational, policy, and administrative support to investigations and programs
conducted throughout the U.S. and in foreign countries. Under the direction of the FBI Director and Deputy
Director, HQ is organized into five main branches headed by Executive Assistant Directors and several
supporting divisions managed by the Associate Deputy Director. Each field office is overseen by a Special
Agent in Charge or an Assistant Director in Charge. Resident agencies are managed by Supervisory Special
Agents.
In FY 2013, the FBI’s appropriated staffing level consisted of 12,979 Special Agents, 3,038 Intelligence
Analysts, and 18,337 professional staff along with an additional 3,213 reimbursable positions.


FINANCIAL STRUCTURE
For purposes of executing its budget, the FBI’s funds are organized into the following categories:
appropriated single, multi-year, and no-year Salaries and Expenses funds; and, appropriated no-year
Construction funds. These funds include new appropriations, transfers of appropriations from other federal
agencies, and the carry-over of prior years’ unobligated balances for multi-year and no-year appropriated
funds. The FBI also receives reimbursable funding from other agencies for services rendered.


ANALYSIS OF FINANCIAL STATEMENTS
The FBI’s financial statements received unmodified audit opinions for FYs 2013 and 2012, respectively.
These financial statements have been prepared from the accounting records of the FBI in conformity with
U.S. generally accepted accounting principles issued by the Federal Accounting Standards Advisory Board
and presentation guidelines in the Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements.
Assets: Total Assets were $6.1 billion as of September 30, 2013, a decrease of $649 million or 10 percent
from the previous fiscal year’s Total Assets of $6.7 billion. This decrease is primarily due to Appropriations
Permanently Reduced for sequestration of $559 million and rescission of $171 million. The decrease in
Total Assets is partially offset by an increase in Intra-Governmental Accounts Receivable of $176 million.
The increase in Intra-Governmental Accounts Receivable is due to an enhanced revenue accrual and late-
year reimbursable activities.
Liabilities: Total Liabilities were $1.2 billion as of September 30, 2013, a decrease of $295 million or 19
percent from the previous fiscal year’s Total Liabilities of $1.5 billion. This decrease is primarily due to
decreases in Intra-Governmental Other Liabilities, Accounts Payable with the Public and Accrued Payroll
and Benefits. The decrease in Intra-Governmental Other Liabilities is primarily due to a reduction in the



Federal Bureau of Investigation                     -4-
                Management’s Discussion and Analysis


number of days included in the payroll accrual – six workdays in FY 2013 versus 15 workdays in FY 2012 –
which resulted in a decrease of $129 million. The primary factor for the remaining decrease is based on a
decrease in expenditure activities throughout FY 2013 combined with more timely payments and cleanup in
preparation for the Unified Financial Management System (UFMS) conversion.
Net Cost of Operations: Total Net Cost of Operations was $7.8 billion for FY 2013, a decrease of $306
million or four percent from Total Net Cost of Operations of $8.1 billion in FY 2012. This decrease is
primarily due to the reduction in appropriations from sequestration and rescission during FY 2013.
Budgetary Resources: Total Budgetary Resources were $10.1 billion for FY 2013, a decrease of $592
million or six percent from Total Budgetary Resources of $10.7 billion in FY 2012. This decrease is
primarily due to a reduction in Appropriations of $691 million and a reduction in Spending Authority from
Offsetting Collections of $158 million. The reduction is partially offset by an increase in Unobligated
Balance from Prior Year Budget Authority, Net of $257 million. The decrease in Appropriations is due to
amounts permanently reduced for sequestration of approximately $559 million and the rescission of $171
million. Recoveries of Prior Year Unpaid Obligations increased due to a large effort related to the UFMS
conversion.




Federal Bureau of Investigation                   -5-
                 Management’s Discussion and Analysis


Table 1 presents the sources of financing for FBI resources distinguished by Earned Revenue, Budgetary
Financing Sources, and Other Financing Sources. Table 2 describes how the FBI spent its resources, divided
across Strategic Goals 1, 2, and 3.
                                         Table 1. Source of FBI Resources
                                              (Dollars in Thousands)
                              Source                                        FY 2013       FY 2012            Change%
Earned Revenue                                                          $     1,330,118 $   1,286,794               3%
Budgetary Financing Sources
  Appropriations Received                                                     8,276,009         8,117,973           2%
  Appropriations Transferred-In/Out                                            (134,901)          (60,821)      (122%)
  Nonexchange Revenue                                                                 2               -             n/a
  Transfers-In/Out Without Reimbursement                                         (7,329)              -             n/a
  Other Adjustments and Other Budgetary Financing Sources                      (730,365)              -             n/a
Other Financing Sources
  Transfers-In/Out Without Reimbursement                                         (7,803)            5,333       (246%)
  Imputed Financing from Costs Absorbed by Others                               256,974           276,722          (7%)
  Other Financing Sources                                                        (6,166)           (5,199)       (19%)
Total                                                                   $    8,976,539 $       9,620,802          (7% )


                                      Table 2. How FBI Resources are Spent
                                              (Dollars in Thousands)
                        Strategic Goal (SG)                           FY 2013       FY 2012                  Change%
SG 1: Prevent Terrorism and Promote the Nation's Security
Consistent with the Rule of Law
                                                         Gross Cost $   5,011,528 $   5,341,870
                                              Less: Earned Revenue        473,594       460,839
                                                          Net Cost $    4,537,934 $   4,881,031                   (7%)
SG 2: Prevent Crime, Protect the Rights of the American People,
and Enforce Federal Law
                                                           Gross Cost   $     3,029,264 $       2,964,275
                                               Less: Earned Revenue             343,140           340,061
                                                             Net Cost   $     2,686,124 $       2,624,214          2%
SG 3: Ensure and Support the Fair, Impartial, Efficient, and
Transparent Administration of Justice at the Federal, State, Local,
Tribal, and International Levels
                                                           Gross Cost   $     1,053,013 $       1,050,783
                                               Less: Earned Revenue             513,384           485,894
                                                             Net Cost   $       539,629 $         564,889         (4%)

                                                   Total Gross Cost $        9,093,805     $   9,356,928
                                        Less: Total Earned Revenue           1,330,118         1,286,794
                                       Total Net Cost of Operations $        7,763,687     $   8,070,134          (4%)




Federal Bureau of Investigation                        -6-
                Management’s Discussion and Analysis


FY 2013 Financial Highlights
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of
Law, includes the FBI’s counterterrorism and counterintelligence investigations, intelligence collection and
analysis, computer intrusions investigations, and the WMD program. In FY 2013, Goal 1 Net Cost was $4.5
billion, a net decrease of seven percent from FY 2012. This decrease is primarily attributed to sequestration
and rescissions.
Strategic Goal 2, Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law,
includes the majority of the FBI's criminal investigative programs and programs supporting state and local
law enforcement. Investigations under Goal 2 include: organized crime, drugs, violent crime, white-collar
crime, and cyber crime. In FY 2013, Goal 2 Net Cost was $2.7 billion, a net increase of two percent from
FY 2012. This increase is primarily attributed to the supplemental funding for Hurricane Sandy, and
realignment to support cyber initiatives, mortgage and financial fraud.
Strategic Goal 3, Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration
of Justice at the Federal, State, Local, Tribal, and International Levels, includes the FBI’s Integrated
Automation Fingerprint Identification Systems, Next Generation Identification, the National Instant Criminal
Background Check System, the Law Enforcement National Data Exchange, and other criminal justice
services that the FBI offers to law enforcement agencies and local communities. In FY 2013, Goal 3 Net
Cost was $0.5 billion, a net decrease of four percent from FY 2012. This decrease is primarily attributed to
program offsets, rescissions, and sequestration.


PERFORMANCE INFORMATION
Data Reliability and Validity
Data reliability and validity are critically important to the FBI’s planning and performance. This document
includes a discussion of data validation, verification, and data limitations for each performance measure
presented. Each reporting component ensures that data meet the following criteria:
        At a minimum, performance data are considered reliable if transactions and other data that support
        performance measures are properly recorded, processed, and summarized to permit the preparation
        of performance information in accordance with criteria stated by management. Performance data
        need not be perfect to be reliable, particularly if the cost and effort to secure the best performance
        data possible will exceed the value of any data so obtained.
Performance measures included in previous FBI Management’s Discussion and Analysis (MD&A)
documents may have changed as a result of new information that was unavailable prior to submitting
previous financial reports. Due to the requirement to disclose performance data in the MD&A before the
close of the data entry period, reports of certain FY 2013 performance measures should be considered
tentative and are annotated accordingly. Other subsequent changes to prior-year data may have occurred due
to factors beyond the control of the FBI’s data collection systems (e.g., convictions overturned on appeal).
For previously estimated measures, the FBI reviewed and revised certain FY 2012 performance data from the
FY 2012 MD&A. The FBI’s FY 2014 Authorization and Budget Request to Congress documented these
revisions. For FY 2013 MD&A performance estimates, the final results will be reflected in the FY 2015
President’s Budget.




Federal Bureau of Investigation                     -7-
                 Management’s Discussion and Analysis


FY 2013 REPORT ON SELECTED RESULTS


STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the
Rule of Law 58 percent of the FBI’s Net Cost supports this Goal.


PROGRAM: Counterterrorism
Background/Program Objectives: The FBI is committed to disrupting and preventing terrorism, from
thwarting those intending to conduct a terrorist act to investigating financiers of terrorist operations. All
counterterrorism investigations are managed at FBI Headquarters by the Counterterrorism Division (CTD).
CTD provides a centralized, comprehensive, and intelligence-driven approach to addressing both
international and domestic terrorism-related matters.
Performance Measure: Number of Counterterrorism                             Number of Counterterrorism Intelligence

                                                                          Products Shared with the IC, State and Local

Intelligence Products Shared with the IC, State and                       Law Enforcement Community Partners, and 

Local Law Enforcement Community Partners, and                                   Foreign Government Agencies

Foreign Government Agencies
        FY 2009 Actual Performance: Not Available
                                                                15,000                             13,231     12,445       13,111
        FY 2010 Actual Performance: Not Available
                                                                                                                                  10,000
        FY 2011 Actual Performance: 13,231                      10,000
        FY 2012 Actual Performance: 12,445
        FY 2013 Target:                   10,000                 5,000

        FY 2013 Actual Performance: 13,111
                                                                      0
Discussion of FY 2013 Results:                                               FY09       FY10        FY11        FY12       FY13

The FBI surpassed its target for this measure in                                          Actuals        Target
FY 2013, with a total of 13,111 intelligence products
shared. Broken down by quarter, the number of                Data Definitions: Data represents the number of intelligence products
                                                             shared with domestic partners. Products include: White Papers,
intelligence products shared with the IC, state, and         Intelligence Informa ion Reports (IIRs), Intelligence Bulletins, Intelligence
local law enforcement community partners were 3,210;         Assessments, National Threat Bulletins, Current Intelligence Reports,
                                                             Intel Studies, Intel Notes, meetings, and briefings.
2,975; 3,233; and 3,693 respectively. In FY 2013,
                                                             Data Collection and Storage: Data is stored on multiple platforms and
CTD continued its emphasis on the production of high-        collected routinely. Some data is calculated manually.
value IIRs and other intelligence products. CTD              Data Validation and Verification: Data is validated and verified through
executive management remains committed to increased          FBI reports and communica ions.

intelligence sharing in the effort to combat the terrorist   Data Limitations: Some data is calculated manually.
threat.




Federal Bureau of Investigation                       -8-
                Management’s Discussion and Analysis


STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and Enforce
Federal Law 35 percent of the FBI’s Net Cost supports this Goal.


PROGRAM: Criminal Enterprises
Background/Program Objectives: The FBI’s criminal enterprise investigations, managed by the Criminal
Investigative Division at FBI Headquarters, focus on violent gangs, Drug Trafficking Organizations (DTOs),
and other organized violent criminal actors.
Violent Gang Criminal Enterprises (VGCEs)
The mission of the FBI’s Violent Gang program is to address the VGCE threat in the U.S. by aggressively
identifying, prioritizing, and targeting the most violent street and prison gangs whose activities constitute
criminal enterprises. In January 1992, the FBI established the Safe Streets Violent Crime Initiative to attack
gang and drug-related violence through the establishment of long-term, proactive, and coordinated teams of
federal, state, and local law enforcement officers and prosecutors. The teams are manifested in Violent Gang
Safe Streets Task Forces (VGSSTFs). As of September 30, 2013, the 160 VGSSTFs managed by the FBI
were comprised of approximately 839 FBI Special Agents and 1,440 state, local, and other federal law
enforcement officials.
Through VGSSTFs, the FBI pursues violent gangs through sustained, proactive, and coordinated
investigations and prosecutes gang members for a number of violations that include, but are not limited to,
racketeering, drug conspiracy, and firearms violations. The Safe Streets Task Forces (SSTFs) concept
expands cooperation and communication among federal, state, and local law enforcement agencies,
increasing productivity and avoiding duplication of investigative efforts. SSTFs combine short term, street-
level enforcement activity with sophisticated investigative techniques like undercover operations and Title III
wire taps to root out, prosecute, and disrupt and dismantle the entire gang, from the street-level enforcers and
dealers to crew leaders and gang's command structure.
State and local officers bring an unparalleled level of expertise and knowledge regarding local gangs, gang
members, and violent offenders operating in their department’s area of responsibility. This knowledge,
combined with FBI resources, ensures VGSSTFs are successful in disrupting and dismantling the most
violent gangs.




Federal Bureau of Investigation                     -9-
                 Management’s Discussion and Analysis


Performance Measure: Number of Gang Arrests
                                                                             Number of Gang Arrests Resulting from

Resulting from Coordination of Gang Investigations                            Coordination of Gang Investigations


        FY 2009 Actual Performance: 9,082                                      9,082
                                                                 10,000
                                                                                                      8,364       8,013           8,173
        FY 2010 Actual Performance: 7,184                                                  7,184
                                                                  8,000                                                   6,868
        FY 2011 Actual Performance: 8,364
                                                                  6,000
        FY 2012 Revised Performance: 8,013
                                                                  4,000
        FY 2013 Target:                     8,173
                                                                  2,000
        FY 2013 Actual Performance: 6,868
                                                                       0
Discussion of FY 2013 Results:                                                FY09        FY10        FY11        FY12        FY13

The FBI has not met its target for this measure in                                           Actual      Target
FY 2013. However, as discussed in the data                      Data Definition: Data represents the number of all FBI gang
limitations (see chart), the FBI expects an additional          investiga ion arrests that were reported in the Integrated Statistical
                                                                Reporting and Analysis Application (ISRAA).
increase in the final results for this measure because
FBI field personnel have until the end of the month to          Data Collection and Storage: Data is input by the field offices and
                                                                stored in ISRAA.
submit their statistics into the FBI’s internal statistical
                                                                Data Validation and Verification: Data was validated and verified in
accomplishments tracking system. The final end of               ISRAA.
year performance data for this measure will be                  Data Limitations: Data is calculated manually. FBI field personnel are
reflected in DOJ’s FY 2013 Violent Crime Priority               required to enter accomplishment data within 30 days of he
                                                                accomplishment or a change in the status, such as those resulting from
Goal reporting process.                                         appeals. Data is compiled less than 30 days after the end of the fiscal
                                                                year, and thus may not fully represent the accomplishments during the
In comparison to FY 2012, the FBI has exceeded                  reporting period.
many statistical accomplishments for FY 2013. While
the FBI’s VGSSTFs fell short of their target of 8,173 arrests for FY 2013, VGSSTFs dismantled 162
criminal organizations – the highest dismantlement total of the past 14 fiscal years. The FBI views
indictments, convictions, disruptions, and dismantlements as relevant measures as these statistical
accomplishments show a greater impact on combating violent gangs. In FY 2013, the VGSSTFs arrested
6,868 individuals; filed indictments/informations against 4,234 subjects; convicted 2,899 defendants; and
disrupted the activities of 2,101 criminal enterprises. This statistical reduction can also be attributed to the
reduction in financial resources available to the FBI in addressing this criminal threat, due to budgetary
constraints of the U.S. Government (USG).
The FBI recognizes that violent gangs are one of the biggest threats in the U.S. as all 56 FBI field offices
have ranked violent gangs as a priority criminal threat. VGSSTFs are examples of the FBI’s longstanding
and continued commitment to address violent gang activity across the U.S. As of September 30, 2013, the
FBI’s Safe Streets and Gang Unit administered 160 VGSSTFs nationwide. Due to current budget constraints
faced by the USG, it is vital that the FBI continues to maximize its resources by partnering with other
agencies to combat this pervasive threat.




Federal Bureau of Investigation                        - 10 -
                   Management’s Discussion and Analysis


Performance Measure: Number of Intelligence                                       Number of Intelligence Products to Support

Products to Support Federal, State, and Local Law                                 Federal, State, and Local Law Enforcement

Enforcement
         FY 2009 Actual Performance: 20                                                                                   132
                                                                           140
         FY 2010 Actual Performance: 32                                    120
                                                                           100
         FY 2011 Actual Performance: 45
                                                                            80
                                                                                                                  53            47
         FY 2012 Actual Performance: 53                                     60                          45
                                                                                             32
                                                                            40     20
         FY 2013 Target:                         47                         20
         FY 2013 Actual Performance: 132                                     0
                                                                                   FY09      FY10       FY11     FY12    FY13
Discussion of FY 2013 Results:
                                                                                               Actual        Target
The FBI met and exceeded its target for this measure in
FY 2013 for the number of intelligence products              Data Definition: Intelligence products such as Intelligence Reports,
                                                             Bulletins, Assessments, and Notes are produced and disseminated to
produced in support of federal, state, and local             federal, state, and local law enforcement agencies. These intelligence
investigations that are focused on gangs posing a            products aid law enforcement agencies in their efforts to address violent
                                                             gangs as they focus on criminal activity, trends, growth, and migration of
significant threat to the U.S. NGIC integrates               gangs domes ically and internationally.
intelligence across federal, state, and local law            Data Collection and Storage: All disseminated intelligence products
enforcement communities on the growth, migration,            are uploaded into Na ional Gang Intelligence Center (NGIC) Online.
                                                             Reports are generated through NGIC Online to track the type and
criminal activity, and association of violent gangs.         number of products disseminated.
NGIC supports law enforcement by sharing timely and          Data Validation and Verification: The Violent Criminal Threat Section
accurate information and by providing strategic, tactical, management has the ability to run reports to verify the number of reports
                                                             produced and disseminated.
and analytical intelligence products. Products are
defined as intelligence products that have a nexus to        Data Limitations: None.

gang matters. These intelligence products include
Intelligence Bulletins, Intelligence Assessments, Intelligence Reports, Situational Awareness Bulletins, and
Gang Information Reports. NGIC projected it would produce and disseminate 47 intelligence products in FY
2013. However, NGIC surpassed this goal by producing 132 intelligence products.
In order to accomplish the target set for this measure, NGIC conducted outreach to law enforcement
organizations to promote the existence and use of NGIC Online. Through NGIC Online, investigators
throughout the country can submit requests for intelligence and analytical support electronically and receive
the resulting analytical products electronically. NGIC Online also allows the requestor to check the status of
the request online. As a result of the successful implementation of NGIC Online, law enforcement officers
can obtain gang intelligence more quickly and effectively. NGIC Online thus represents, and promotes, the
efficient use of law enforcement resources.




Federal Bureau of Investigation                              - 11 -
                Management’s Discussion and Analysis


Gangs/Criminal Enterprises – Consolidated Priority Organization Target (CPOT) DTOs
In FY 2003, DOJ developed a single national list of criminal enterprises engaged in major drug trafficking
and money laundering organizations. This list of targets, the CPOT list, is updated periodically and reflects
the most significant international narcotic suppliers (and related money-laundering organizations), poly-drug
traffickers, clandestine drug manufacturers and producers, and major drug transporters supplying the U.S.
The FBI has developed a comprehensive counter-drug strategy designed to investigate and prosecute illegal
drug traffickers and distributors, reduce drug related crime and violence, provide assistance to other law
enforcement agencies, and strengthen international cooperation. The strategy focuses the FBI's counter-drug
resources on identified CPOT organizations associated primarily with Colombian, Mexican, and Caribbean
drug trafficking organizations with the most adverse impact on U.S. national interests.
Performance Measure: CPOT-linked DTOs
                                                                            CPOT-linked DTOs Dismantled
Dismantled
        FY 2009 Actual Performance: 20
                                                            40
                                                     36
        FY 2010 Actual Performance: 12                      35
                                         30
                                                            30

        FY 2011 Actual Performance: 22                      25
      20                     22
                                                            20                                                           15
        FY 2012 Revised Performance: 30                     15                   12
        FY 2013 Target:                 15                  10
                                                             5

        FY 2013 Actual Performance: 36                       0

                                                                    FY09        FY10        FY11        FY12        FY13
Discussion of FY 2013 Results:
                                                                                      Actual     Target
The FBI met and exceeded its target for this measure
in FY 2013. It is anticipated that the FBI will 	        Data Definition: Disman lement means destroying the organization’s
continue to achieve greater efficiency linking cases     leadership, financial base, and supply network such that the
                                                         organization is incapable of operating and/or reconstituting itself.
to CPOTs which were not previously identified or
                                                         Data Collection and Storage: The data source is the FBI's ISRAA
documented, allowing higher documented production.       database that tracks accomplishments from inception to closure.

In FY 2013, the FBI continued the implementation of      Data Validation and Verification: Data is reviewed and approved by
                                                         an FBI field manager, and subsequently verified hrough inspection.
the Southwest Border Strategy which includes the         Inspections occur at least annually, tracing sampled data to source
                                                         documents in FBI files. In addition, program managers at FBI HQ
establishment of a Latin America/Southwest Border        verify each investigation’s link to an organization on the CPOT list.
Threat Section in the Criminal Investigative Division.   Data Limitations: FBI field personnel are required to enter
                                                         accomplishment data within 30 days of he accomplishment or a
The FBI is also a partner on the Organized Crime         change in the status, such as those resulting from appeals. Data is
Drug Enforcement Task Force (OCDETF) Strike              compiled less than 30 days after the end of the fiscal year, and thus
                                                         may not fully represent the accomplishments during the reporting
Forces. This partnership fosters the intelligence        period.
sharing and coordination necessary to achieve an
intelligence-driven, multi-agency strategic
enforcement approach to investigations. The OCDETF Executive Office has established co-located Strike
Forces in key cities around the country. These Strike Forces serve a dual purpose through aggressively
targeting CPOT and high-level trafficking organizations and functioning as a central point of contact for
OCDETF agents and prosecutors nationwide by gathering intelligence and disseminating investigative leads
throughout the country. The OCDETF Strike Forces advance drug trafficking investigations by bringing
together the resources and expertise of OCDETF's participating investigative agents and prosecutors. By
coordinating these efforts, the participants eliminate superfluous efforts and save valuable resources.




Federal Bureau of Investigation                   - 12 -
                 Management’s Discussion and Analysis


To fully engage the field in support of the FBI’s initiative to increase CPOT linkages, the Transnational
Organized Crime - Western Hemisphere/OCDETF unit provided communications outreach and instruction to
the field by utilizing the Regional OCDETF Coordinators, OCDETF Program Analysts as well as the
substantive units at Headquarters. In addition, the OCDETF Unit focused more resources toward CPOT-
linked investigations thereby increasing CPOT links and subsequent disruptions and dismantlements.
Through continued education efforts with the field, as well as the correlation of CPOT linking to the
approval of case funding requests, the Bureau continues to increase OCDETF cases and case linkages.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure; therefore, the final result may ultimately vary from this report. Final results will be reflected in
the FY 2015 President’s Budget.
Performance Measure: CPOT-linked DTOs
                                                                             CPOT-linked DTOs Disrupted
Disrupted
        FY 2009 Actual Performance: 35                                                                               139
                                                             140
        FY 2010 Actual Performance: 40                       120
                                                             100
        FY 2011 Actual Performance: 54                         80                                              64
                                                                                                 54
        FY 2012 Revised Performance: 64                        60
                                                                       35          40
                                                               40                                                          30
        FY 2013 Target:                    30                  20
        FY 2013 Actual Performance: 139                         0
                                                                       FY09       FY10        FY11         FY12      FY13
Discussion of FY 2013 Results:                                                          Actual        Target
The FBI met and exceeded its target for this              Data Definition: Disruption means impeding the normal and effective
                                                          operation of the targeted organization, as indicated by changes in
measure in FY 2013. It is anticipated that the FBI        organizational leadership and/or changes in methods of operation,
will continue to achieve greater efficiency linking       including, for example, financing, trafficking patterns, communications
                                                          or drug produc ion.
cases to CPOTs which were not previously
identified or documented, allowing higher                 Data Collection and Storage: The data source is the FBI's ISRAA
                                                          database that tracks accomplishments from inception to closure.
documented production.
                                                          Data Validation and Verification: Data is reviewed and approved by
                                                          an FBI field manager, and subsequently verified through inspection.
In FY 2013, the FBI continued the implementation          Inspections occur at least annually, tracing sampled data to source
of the Southwest Border Strategy which includes           documents in FBI files. In addition, program managers at FBI HQ
                                                          verify each investigation’s link to an organiza ion on he CPOT list.
the establishment of a Latin America/Southwest
                                                          Data Limitations: FBI field personnel are required to enter
Border Threat Section in the Criminal                     accomplishment data within 30 days of the accomplishment or a
Investigative Division.                                   change in the status, such as those resulting from appeals. Data is
                                                          compiled less than 30 days after the end of the fiscal year, and thus
                                                          may not fully represent the accomplishments during the reporting
                                                          period.




Federal Bureau of Investigation                       - 13 -
                Management’s Discussion and Analysis


PROGRAM: White-Collar Crime (WCC)
Background/Program Objectives: The FBI’s WCC program investigates criminals and criminal enterprises
that seek illicit gains through fraud and guile. Illegal activities investigated include corporate, health care,
securities and commodities, financial institution, mortgage, government (defense procurement and other
areas), insurance, mass marketing, and bankruptcy fraud; environmental crimes; and money laundering.
U.S. citizens and businesses lose billions of dollars each year to criminals engaged in non-violent fraudulent
enterprises. The globalization of economic and financial systems, technological advances, declining
corporate and individual ethics, and the sophistication of criminal organizations have resulted in annual
increases in the number of illegal acts characterized by deceit, concealment, or violations of trust. These
crimes contribute to a loss of confidence in financial
institutions, public institutions, and industry.
Performance Measure: Number of Criminal                            Number of Criminal Enterprises Engaging in
                                                                        White-Collar Crimes Dismantled
Enterprises Engaging in White-Collar Crimes                                                           493
Dismantled	                                                     500
                                                                                               409
                                                                                      368                 385
        FY 2009 Actual Performance: 250                         400
                                                                              309
                                                                300   250
        FY 2010 Actual Performance: 309
                                                                200
        FY 2011 Actual Performance: 368
                                                                100
        FY 2012 Actual Performance: 409
                                                                   0
        FY 2013 Target:                   385                           FY09       FY10        FY11      FY12      FY13

        FY 2013 Actual Performance: 493                                               Actual      Target

Discussion of FY 2013 Results:                            Data Definition: Dismantlement means destroying the organization’s
                                                          leadership, financial base, and supply network such that the
The FBI met and exceeded its target for this              organization is incapable of operating and/or reconstituting itself.

measure in FY 2013 through proactive investigative	       Data Collection and Storage: The data source is the FBI's ISRAA
                                                          database that tracks accomplishments from inception to closure.
techniques and technological advances. Increased
utilization of Group I Undercover Operations, Title       Data Validation and Verification: Data is reviewed and approved by
                                                          an FBI field manager, and subsequen ly verified through inspection.
IIIs, and other advanced techniques not commonly          Inspections occur at least once annually, tracing sampled data to
                                                          source documents contained in FBI files.
utilized in past WCC cases enabled significant
investigative achievements against WCC threat             Data Limitations: FBI field personnel are required to enter
                                                          accomplishment data within 30 days of the accomplishment or a
actors.	                                                  change in the status, such as those resulting from appeals. Data is
                                                          compiled less than 30 days after the end of the fiscal year, and thus
As stated in the data limitations, it should be noted     may not fully represent he accomplishments during the reporting
                                                          period.
that there is a potential lag in the reporting of the
data for this measure; therefore, the final result may
ultimately vary from this report. FY 2013 final results will be reflected in the FY 2015 President’s Budget.

STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels 7 percent of the
FBI’s Net Cost supports this Goal.




Federal Bureau of Investigation                     - 14 -
                Management’s Discussion and Analysis


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory basis
for management’s responsibility for and assessment of internal accounting and administrative controls. Such
controls include program, operational, and administrative areas, as well as accounting and financial
management. The Integrity Act requires federal agencies to establish controls that reasonably ensure
obligations and costs are in compliance with applicable law; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for to maintain accountability over the assets. The Integrity Act also requires
agencies to annually assess and report on the internal controls that protect the integrity of federal programs
(FMFIA Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).
Internal Controls Program
Management of the FBI is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular
A-123, Management’s Responsibility for Internal Control, the FBI conducted its annual assessment of the
effectiveness of internal controls to support effective and efficient programmatic operations, reliable
financial reporting, and compliance with applicable laws and regulations (FMFIA Section 2). The FBI also
assessed whether its financial management systems conform to financial systems requirements (FMFIA
Section 4). Based on the results of the assessments, the FBI provided reasonable assurance that its internal
controls and financial management systems met the objectives of the FMFIA, with the exception of the
reportable condition and nonconformances summarized below. Corrective Action Plans were established to
institute programs and/or controls to eliminate these conditions.
FMFIA Section 2 – Reportable Conditions
The FBI designated one item under Section 2 as a reportable condition:
•	 National Security Letters (NSLs): In March 2007, the Office of the Inspector General (OIG) reported
   that the FBI’s use of NSLs grew dramatically and shifted in focus since the enactment of the Patriot Act
   and that NSLs served as an indispensable investigative tool. The OIG found issues with the FBI’s
   tracking, reporting, and guidance regarding NSL usage. A March 2008 follow-up review assessed the
   FBI’s corrective actions and indicated the FBI and Department had made significant progress in
   implementing the 2007 recommendations. Improvements included strengthening the controls and
   automated workflow governing the request, review, and approval of NSLs; field office monthly
   reconciliations of NSL usage; and improving the database used to track NSL use. The FBI's actions to
   remediate the March 2007 OIG findings were completed by June 2007. The FBI agreed to each of the
   recommendations proposed in the 2008 report and implemented the proposed changes where appropriate.
   Several of the recommendations, however, were rendered moot by the FBI’s implementation of the NSL
   Subsystem. The FBI continues to dedicate personnel and resources to ensure appropriate use of NSLs.
FMFIA Section 4 – Nonconformances
The FBI provided reasonable assurance that its internal control over financial management systems was
operating effectively, except for three system nonconformances as summarized below:
•	 Financial Systems Compliance: The FBI's Financial Management System (FMS) was inadequate and
   audit reports indicated there were concerns regarding its compliance with financial systems requirements.




Federal Bureau of Investigation                    - 15 -
                Management’s Discussion and Analysis


    The FBI and the DOJ's Chief Information Officer addressed the most severe findings to minimize
    financial reporting risks until the DOJ UFMS was fully implemented in FY 2014.
•	 Inadequate Accountability Over the Health Insurance Portability and Accountability Act of 1996
   (HIPAA) Funding of Health Care Fraud Investigations: In a response to an April 2005 Government
   Accountability Office (GAO) report, the FBI concurred that it did not adequately monitor use of health
   care fraud investigative resources. Due to the limitations of the FMS, the FBI was not in a position to
   determine whether all transferred funds were spent for the purpose provided. The GAO provided four
   recommendations, two enhancing the FBI's accountability over the HIPAA transfers and two augmenting
   the new UFMS cost-tracking capabilities in the long term. Enhancements to the FBI's accountability
   were completed and the remaining recommendations will be completed with the implementation of
   UFMS in FY 2014.
•	 Management of Confidential Case Funds and Telecommunication Costs: Reviewing cases between 2004
   and 2006, a January 2008 OIG report on the FBI Management of Confidential Case Funds and
   Telecommunication Costs noted that the FBI’s FMS, “lacks the controls necessary to prevent theft and,
   as such, is not an effective financial system for FBI employees to use to account for and approve
   confidential case funds.” The OIG provided 16 recommendations to improve the FBI’s internal financial
   controls related to the tracking, payment, and processing of undercover telecommunications expenses
   and case funds. The FBI initiated actions - many of them independent of the OIG audit - to improve
   processes and provide additional oversight of confidential case funds. Of the 16 recommendations, the
   OIG has considered the FBI’s actions sufficient to close 13. The remaining three recommendations are
   being addressed in a 90-day response cycle with the OIG.
OMB Circular A-123, Appendix A – Internal Control Over Financial Reporting
In FY 2013, the FBI documented and assessed its significant business processes according to the
requirements of DOJ’s Implementation Plan for compliance with OMB Circular A-123, Management’s
Responsibility for Internal Control, revised December 21, 2004. The revised Circular A-123 re-examined
internal control requirements for federal agencies in light of the requirements for publicly-traded companies
implemented by the Sarbanes-Oxley Act of 2002. The full Circular A-123, Appendix A: Internal Control
Over Financial Reporting assessment covered all processes deemed to be significant to the FBI and the
Department of Justice. These processes were: Budget and Funds Management, Revenue and Receivables
Management, Procurement, Property Management, Treasury and Fund Balance with Treasury, Human
Resources, Financial Reporting, and Information Systems. The results of the assessment indicated no
material weaknesses in the FBI’s internal control over financial reporting as of June 30, 2013.
Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA or Act) was designed to improve
federal financial and program managers’ accountability, provide better information for decision-making, and
improve the efficiency and effectiveness of federal programs. FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger (USSGL) at the transaction
level. Furthermore, the Act requires independent auditors to report on agency compliance with the three
requirements in the financial statement audit report. The Federal Information Security Management Act
states that to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.




Federal Bureau of Investigation                    - 16 -
                Management’s Discussion and Analysis


FFMIA Compliance Determination
During FY 2013, the FBI performed a self-assessment and documented several areas in which its key
financial management systems, principally FMS, have a moderate risk of not providing reliable and
consistent information for decision-making. As a result, the FBI reported several instances in which its key
financial management systems do not comply with certain provisions of FFMIA.
•	 Federal Financial Management System Requirements: The FBI relies upon several systems to provide
   financial information that is necessary to support their financial management needs. These systems used
   by the FBI during FY 2013 include the Available Funds File, the Procurement Module of FMS, the
   Enterprise Process Automation System, and the Reimbursable Agreement Management System. The
   FBI’s core financial systems are not integrated through a common database or interfaced electronically to
   meet data and processing requirements.
•	 Transactions Entered at the Standard General Ledger Level: The FBI’s financial management systems
   are not currently configured to use the USSGL at the transaction level. Specifically, certain transactions
   are processed outside of the FBI’s core financial accounting system, but are not recorded at the
   transaction level using the USSGL. These transactions must be modified when recorded into the core
   financial accounting system through a manual or automated batch transaction process.
Legal Compliance
Except as discussed above, the FBI is not aware of any additional instances of material noncompliance with
laws or regulations identified in OMB guidance, or with any laws or regulations that have a direct and
material effect on the FBI’s financial statements.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
Factors and Future Trends Affecting Federal Bureau of Investigation Programs’ Goal Achievement
The Changing Threat
Over the past decade, the FBI has overhauled its counterterrorism operations, expanded its intelligence
capabilities, modernized its business practices and technology, and improved coordination with its partners.
However, the U.S. continues to face significant challenges to national security from increasingly
sophisticated internal and external threats. In addition to established and lone wolf actors, the U.S. faces
WMD, foreign intelligence, cyber, and criminal threats in areas such as public corruption, complex financial
crimes, violent gangs, and violent crime. Significant advances in global technological markets over the past
few years have increased the risk of the FBI’s technical capabilities falling significantly behind those of our
adversaries. To avert this risk and to enhance the FBI’s capabilities to combat rapidly changing cyber threats,
the FBI is in the process of implementing its Next Generation Cyber initiative. The initiative will more
strategically focus the efforts of the FBI’s Cyber Division on the greatest cyber threat – intrusions into
government and industry computers and networks.
Not all threats to the U.S. come from abroad. Beginning in FY 2012, the FBI and the broader IC dedicated
significant time and resources to the Insider Threat. Executive Order (EO) 13587, Structural reforms to
improve the security of classified networks and the responsible sharing and safeguarding of classified
networks, identifies DOJ and the Office of the Director of National Intelligence as lead agencies to ensure
compliance with the EO mandates across the IC. Due to this EO, the FBI leads the initiative in developing
policies and standards; assisting the USG components with implementing effective insider threat programs;




Federal Bureau of Investigation                    - 17 -
                Management’s Discussion and Analysis


conducting assessments of existing programs; and producing and sharing training materials with all USG
agencies and partners.
The Gang Threat
Gangs are expanding, evolving and posing an increasing threat to communities nationwide. Gangs continue
to commit criminal activity, recruit new members in urban, suburban, and rural regions across the U.S., and
develop criminal associations that expand their influence over criminal enterprises, particularly street-level
drug sales. The most notable emerging trends have been the overall increase in gang membership, and the
expansion of criminal street gangs’ control of street-level drug sales and collaboration with rival gangs and
other criminal organizations. Prison gangs, by proxy of street gangs, contribute significantly to crime on the
streets.
Gangs are sophisticated criminal networks with members who are violent, distribute wholesale quantities of
drugs, and develop and maintain close working relationships with members and associates of transnational
criminal/DTOs. They are becoming more violent while engaging in less typical and lower-risk crime, such
as prostitution and white-collar crime. Per the 2013 National Gang Survey, the most common crimes include
burglaries, prostitution, robbery, drug trafficking, extortion and theft. Furthermore, gangs are more adaptable,
organized, sophisticated, and opportunistic exploiting new and advanced technology as a means to recruit,
communicate discretely, target rivals, and perpetuate criminal activity.
Constrained Budget Environment
While the threats facing the U.S. continue to evolve, the FBI and the rest of the federal government must
operate within resource constraints. Due to the high national debt, sequestration, and the overall state of the
economy, federal spending is being closely scrutinized. In accordance with Administration guidance, the
FBI has taken many steps to effectively operate within its resource constraints. The FBI continues to identify
opportunities to modernize operations and to automate and streamline processes. Such innovations include:
•	 Implementation of new space allocation standards. The new standards reduce office sizes, consolidate
    special purpose rooms, and reduce the anticipated growth factor for facilities. The FBI also reduced the
    standard furniture workstation size and is currently in the process of researching and acquiring standard
    benching workstations to further increase space density.
•	 Consolidation of FBI public access phone lines scattered across the country to one central location,
    freeing up personnel in the field offices to meet unaddressed operational requirements.
•	 Adjustment of the FBI’s fleet replacement and usage policies.
•	 Contractor conversions into less expensive government positions.
Strategy Management System (SMS)
As a large, complex, and diverse agency with a dual law enforcement and national security mission, the FBI
established a clear, long-term strategy and strategic framework to achieve its mission and ensure the
organization is positioned to address both current and future threats.
Based on the widely utilized Balanced Scorecard methodology, the FBI SMS—implemented in 2006—is the
management tool that the FBI Director and senior leaders use to manage the FBI strategy and evaluate
whether the strategy is working. SMS focuses the FBI on the following questions: What are the strategic
choices that the FBI has to make over the next three to five years? Are FBI resources aligned to its highest
priorities and greatest risks? Which capabilities and internal processes does the FBI need to enhance? What
new training and technology must the FBI provide to its people so they can accomplish the dual mission?
SMS has four key components: Strategic Shifts (FBI vision), Strategy Map (FBI strategic objectives),
strategic measures and targets, and priority initiatives. SMS enables all Bureau employees to speak the same



Federal Bureau of Investigation                    - 18 -
                Management’s Discussion and Analysis


language with regard to strategic planning and execution. Today, SMS is used to help drive program
management, budget, inspection, and overall accountability for performance.


Unified Financial Management System (UFMS)
On October 7, 2013, the UFMS system was deployed across the FBI. The FBI began its transition to UFMS
for the entire organization on September 20, 2013. As of the end of September, nearly 7,000 UFMS users
were trained, with the remainder of UFMS training scheduled for completion in early FY 2014.
Implementation of UFMS will improve the FBI’s financial and acquisitions management performance with
current technology and innovative business practices, resulting in improved service to FBI agents, decision
makers, and other customers.
The enterprise-wide deployment of UFMS represents the culmination of several years of work to replace the
FBI’s 32-year-old, mainframe-based financial system, FMS, with a modern, web-based, FFMIA-compliant
financial and acquisition management system. The FBI initiated its UFMS implementation on November 15,
2010. As part of the initial implementation activities, the FBI documented and validated the current business
process environment; identified FBI specific business processes; completed requirement gathering sessions
used to identify and validate the FBI’s system requirements; documented and verified the FBI UFMS future
business processes through facilitated “to be” working sessions; and conducted UFMS familiarization
sessions and demonstrations to help users become more familiar with system functionality. The FBI
completed preliminary design reviews to map out UFMS business processes and interfaces; conducted
system testing led by the implementation team and user acceptance testing led by the Finance Division (FD)
subject matter experts; and conducted business process training for the user community to encourage
knowledgeable, active, and enthusiastic users.
Starting October 1, 2012, the FBI deployed a pilot implementation of UFMS to a limited number of users,
specifically CJIS; the Chicago, Louisville, and Pittsburgh field offices; the Ottawa Legat; and FD at
headquarters along with limited functionality for the budgetary personnel in the Cyber Division;
Counterintelligence Division; CTD; Criminal Investigative Division; and CIRG. The UFMS pilot system
was the production financial system for pilot users. Feedback from these users was used to identify problems
and system improvements that were addressed in system updates and training plans for the enterprise-wide
implementation.




Federal Bureau of Investigation                   - 19 -
                Management’s Discussion and Analysis


Asset Management System (AMS) – Maximo
The FBI’s AMS completed its first full year of use across the FBI in FY 2013. This system has improved the
accuracy of current inventory processes and controls. AMS is also expected to reduce the administrative
workload associated with manual inventory processes, and provide a scalable system that can be integrated
with future system upgrades. AMS included a new desktop application to manage assets, and replaced
outdated equipment with new barcode scanners in HQ and field divisions. After its launch on October 9,
2012, the system has been in use for all asset tracking and reporting within the FBI. This system was used to
support the wall-to-wall inventory that started April 15, 2013, and was completed in June 2013. The 2013
inventory included approximately 50,000 more assets than the last wall-to-wall inventory, and was the first
inventory using AMS. Using AMS, the FBI inventoried 584,237 accountable assets. Extensive performance
testing was done prior to the inventory, and AMS performance and functionality proved up to the task of
supporting the increased workload of the inventory. The FBI is continuing to evolve the system to upgrade
the version of the COTS software on which AMS is based, and to add functionality, such as interfaces to
UFMS, which will provide additional benefits to the FBI.
Records Management Division (RMD) User Fee Collections for National Name Check Program
(NNCP)
The FBI’s RMD is currently updating the fee structure of the NNCP. Consistent with guidance in OMB
Circular A-25, the FBI evaluates the user fee structure at least every two years, or as prompted by major
program changes. In addition, the NNCP will incur significant costs as it continues to implement
improvements in information technology to improve the efficiency and effectiveness of the NNCP.
Criminal Justice Information Services Division (CJIS) User Fee Collections for Criminal History
Record Information (CHRI)
Consistent with guidance in OMB Circular A-25, the FBI is nearing the completion of the evaluation for the
FBI CJIS User Fee Rate Schedule. During FY 2013, CJIS continued to experience an increase in demand for
CHRI checks for non-criminal justice purposes. As a result, the FBI CJIS anticipates an adjustment to the
fee schedule to reflect the impact of the increased volume on the per transaction costs within the next two
years.


IMPROPER PAYMENTS INFORMATION ACT OF 2002, as amended
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Department implemented a top-down approach to
assess the risk of significant improper payments across all five of the Department’s mission-aligned
programs, and to identify and recapture improper payments through a payment recapture audit program. The
approach promotes consistency across the Department and enhances internal control related to preventing,
detecting, and recovering improper payments. Because of the OMB requirement to assess risk and report
payment recapture audit activities by agency programs, the results of the Department’s risk assessment and
recapture activities are reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the FBI assessed its activities for
susceptibility to significant improper payments and conducted its payment recapture audit program. The FBI
provided the results of both the risk assessment and payment recapture audit activities to the Department for
the Department-level reporting in the FY 2013 Agency Financial Report.




Federal Bureau of Investigation                    - 20 -
                Management’s Discussion and Analysis


LIMITATIONS OF THE FINANCIAL STATEMENTS
•	 The financial statements have been prepared to report the financial position and results of operations of
   the FBI, pursuant to the requirements of 31 U.S.C. 3515(b).
•	 While the statements have been prepared from the books and records of the FBI in accordance with U.S.
   generally accepted accounting principles for federal entities and the formats prescribed by OMB, the
   statements are in addition to the financial reports used to monitor and control budgetary resources which
   are prepared from the same books and records.
•	 The statements should be read with the realization that they are for a component of the USG, a sovereign
   entity.




Federal Bureau of Investigation                    - 21 -
This page intentionally left blank. 





           - 22 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     INDEPENDENT AUDITORS’ REPORTS




                 - 23 -
This page intentionally left blank. 





           - 24 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




                      Independent Auditors’ Report on the Financial Statements


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the accompanying consolidated financial statements of the U.S. Department of Justice
Federal Bureau of Investigation (FBI) which comprise the consolidated balance sheets as of September 30,
2013 and 2012, and the related consolidated statements of net cost, and changes in net position, and the
combined statements of budgetary resources (hereinafter referred to as “consolidated financial statements”)
for the years then ended, and the related notes to the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of the
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.

                                                      - 25 -
Independent Auditors’ Report on the Financial Statements
Page 2




We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Investigation as of
September 30, 2013 and 2012, and its net costs, changes in net position, and budgetary resources for the
years then ended in accordance with U.S. generally accepted accounting principles.

Emphasis of Matter

As discussed in Note 22 to the consolidated financial statements, the FBI has elected to change its
capitalization thresholds for real property, personal property, and internal use software, effective October 1,
2012. Our opinion is not modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information sections be presented to supplement the
consolidated financial statements. Such information, although not a part of the consolidated financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the consolidated financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the required
supplementary information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the consolidated
financial statements, and other knowledge we obtained during our audits of the consolidated financial
statements. We do not express an opinion or provide any assurance on the information because the limited
procedures do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
as a whole. The Combined Schedule of Spending is presented for purposes of additional analysis and is not
a required part of the consolidated financial statements. Such information has not been subjected to the
auditing procedures applied in the audits of the consolidated financial statements, and accordingly, we do
not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our fiscal year 2013 report dated
December 2, 2013 on our consideration of the FBI’s internal control over financial reporting, and our fiscal
year 2013 report dated December 2, 2013 on our tests of its compliance with certain provisions of laws,
regulations, and contracts and other matters. The purpose of those reports is to describe the scope of our



                                               - 26 -
Independent Auditors’ Report on the Financial Statements
Page 3




testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an
integral part of an audit performed in accordance with Government Auditing Standards in considering the
FBI’s internal control over financial reporting and compliance.




December 2, 2013




                                               - 27 -
This page intentionally left blank. 





           - 28 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




 Independent Auditors’ Report on Internal Control over Financial Reporting Based on an Audit of
       Financial Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Federal Bureau of Investigation (FBI), which comprise the consolidated
balance sheets as of September 30, 2013 and 2012, and the related consolidated statements of net cost, and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 2, 2013. As discussed in Note 22
to the consolidated financial statements, the FBI has elected to change its capitalization thresholds for real
property, personal property, and internal use software, effective October 1, 2012. Our opinion is not
modified with respect to this matter.

Internal Control over Financial Reporting

In planning and performing our audit of the consolidated financial statements as of and for the year ended
September 30, 2013, we considered the FBI’s internal control over financial reporting (internal control) to
determine the audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the consolidated financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the FBI’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the FBI’s internal control. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.



                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.

                                                        - 29 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2



Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results of
that testing, and not to provide an opinion on the effectiveness of the FBI’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
the FBI’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 2, 2013




                                                - 30 -
                                  KPMG LLP
                                  Suite 12000
                                  1801 K Street, NW
                                  Washington, DC 20006




  Independent Auditors’ Report on Compliance and Other Matters Based on an Audit of Financial
            Statements Performed in Accordance with Government Auditing Standards


Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the consolidated financial statements of
the U.S. Department of Justice Federal Bureau of Investigation (FBI), which comprise the consolidated
balance sheets as of September 30, 2013 and 2012, and the related consolidated statements of net cost, and
changes in net position and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended and the related notes to the consolidated
financial statements, and have issued our report thereon dated December 2, 2013. As discussed in Note 22
to the consolidated financial statements, the FBI has elected to change its capitalization thresholds for real
property, personal property, and internal use software, effective October 1, 2012. Our opinion is not
modified with respect to this matter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the FBI’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of compliance disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed instances, described in the Exhibit, where the FBI’s financial
management systems did not substantially comply with federal financial management system requirements
because of the lack of a unified, integrated financial management system.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.

                                                       - 31 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 2



The FBI’s financial management systems also do not permit application of the United States Government
Standard General Ledger at the transaction level. Specifically, certain transactions are processed outside of
the FBI’s core financial accounting system, but are not recorded at the transaction level using the United
States Government Standard General Ledger. These transactions must be modified when recorded into the
core financial accounting system through a manual or automated batch transaction process.

The results of our tests of FFMIA disclosed no instances in which the FBI’s financial management systems
did not substantially comply with applicable federal accounting standards.

FBI’s Response to Finding

The FBI’s written response to the instances of FFMIA noncompliance identified in our audit and presented
in the Exhibit was not subjected to the auditing procedures applied in the audit of the FBI’s consolidated
financial statements and, accordingly, we express no opinion on it.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the FBI’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the FBI’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 2, 2013




                                               - 32 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 3

                                                                                          EXHIBIT




                                INSTANCES OF NONCOMPLIANCE


This section contains our discussion of the instances of the FBI’s noncompliance with Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA) that we noted during our fiscal year
2013 audit of the consolidated financial statements.

During fiscal year 2013, the FBI performed a self-assessment, in accordance with OMB Circular
No. A-123, Management’s Responsibility for Internal Control, and documented several areas in which its
key financial management systems, principally the Financial Management System (FMS), have a moderate
risk of not providing reliable and consistent information for decision-making. As a result, the FBI reported
several instances in which its key financial management systems do not comply with certain provisions of
FFMIA.

We concur with the FBI’s assessment and also concluded that the FBI’s key financial systems do not
substantially comply with certain requirements of FFMIA. Specifically, we noted deficiencies in the
following categories:

• Federal Financial Management System Requirements: Many of the FBI’s financial management systems
  pre-date the existing applicable functional requirements for the design, development, operation, and
  maintenance of financial management systems. As a result, these financial management systems do not
  comply with all of the functional requirements included in OMB circulars and bulletins, and the U.S.
  Department of the Treasury’s Treasury Financial Manual.

 The FBI relies upon several systems, outside of its core general ledger system, to provide financial
 information that is necessary to support the FBI’s financial management needs. These systems used by
 the FBI during fiscal year 2013 include the Available Funds File (AFF), the Procurement Module of the
 FMS, the Enterprise Process Automation System, the Asset Management System, and the Reimbursable
 Agreement Management System 2.0 (RAMS). The FBI’s core financial systems are not considered
 unified because the FMS general ledger, certain modules of FMS, and other systems are not linked
 together electronically in an efficient and effective manner to provide the agency-wide financial system
 support necessary to carry out the agency’s mission and support the agency’s financial management
 needs.

 For example, the FMS is unable to capture all open obligations causing a variance between the
 population of undelivered orders from the Procurement Module of the FMS and the General Ledger
 Module of the FMS. Additionally, the FBI is unable to generate a standard report from the FMS
 capturing a complete population of general ledger (GL) and budgetary control (BC) journal vouchers.
 The FBI uses various ad-hoc reports to identify the population of GL or BC journal vouchers. However,
 these reports are unable to capture all applicable data fields to generate a complete population of
 transactions.




                                              - 33 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 4

                                                                                             EXHIBIT

  Further, certain modules within the FMS and other systems do not have historical reporting capabilities
  to meet the data and processing requirements of the FBI.

• Application of the United States Government Standard General Ledger at the Transaction Level: Certain
  transactions are processed outside of the FBI’s core financial accounting system, but are not recorded at
  the transaction level using the United States Government Standard General Ledger (USSGL). These
  transactions must be modified when recorded into the core financial accounting system through a manual
  or automated batch transaction process.

  For example, the FBI’s adjustments to prior year obligations are not recorded at the transaction level.
  This requires the FBI to record a summary-level adjusting journal entry, on a quarterly basis, to record
  adjustments to prior year obligations in the appropriate USSGL accounts. The entry is based on a report
  from the Procurement Module of the FMS of all changes to obligations from prior years, which captures
  administrative changes to obligations in addition to true upward and downward adjustments.
  Additionally, revenue transactions are recorded at a transaction level in the RAMS in a manner that is not
  in accordance with the USSGL. These transactions, on a bi-weekly basis, are then batch uploaded to the
  FMS for recording in accordance with the USSGL.

Due to the issues noted above, the FBI’s consolidated financial statements have the potential to be
misstated. As a result, the personnel involved in preparing the consolidated financial statements and other
financial reports have been required to maintain numerous manual and automated processes in order to
compensate for the controls and reporting abilities that are lacking in the FBI’s financial management
systems.

We make no recommendation corresponding with the instances of FFMIA noncompliance because the FBI
migrated to the Department of Justice Unified Financial Management System (UFMS) on October 7, 2013,
which is expected to eliminate these noted instances of FFMIA noncompliance.

Management Response:

The FBI concurs with the finding. To resolve this finding, the FBI implemented the DOJ’s UFMS on
October 7, 2013. Since 2002, DOJ has been leading the effort to implement a department-wide financial
and procurement management system that will enhance current and future financial management and
procurement operations and standardize key business practices. DOJ is addressing these requirements
through the implementation of UFMS, an integrated commercial-off-the-shelf application that replaced the
FBI’s non-compliant FMS as well as legacy financial management and procurement systems throughout
the Department. Prior to the FBI’s deployment, DOJ successfully implemented UFMS at the Drug
Enforcement Administration; the Bureau of Alcohol, Tobacco, Firearms and Explosives; and the U.S.
Marshals Service. UFMS will fully implement all current federal financial management system
requirements and applicable federal accounting standards, including implementing the USSGL at the
transaction level.

The FBI’s implementation of UFMS is designed to meet the Bureau’s specific business requirements,
integrate business data and activities, and eliminate or interface with its various feeder systems, while at the
same time meeting DOJ’s goal to standardize processes across the Department.




                                                - 34 -
Independent Auditors’ Report on Compliance and Other Matters
Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards
Page 5

                                                                                        EXHIBIT

On October 7, 2013, as scheduled, UFMS was deployed FBI-wide for all FY 2014 financial and
procurement activities and reporting. The FBI’s deployment of UFMS enables the Bureau to fully comply
with all FFMIA requirements, and also to be more fully integrated by eliminating subsystems, such as the
AFF, FMS Procurement Module, and RAMS. FMS has been taken out of production and will be used on a
read-only basis for historical reporting. The “Ask Finance!” help desk, which successfully operated during
the pilot, provided increased staffing and additional training to support the FBI’s full deployment.




                                             - 35 -
This page intentionally left blank. 





           - 36 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     PRINCIPAL FINANCIAL STATEMENTS

           AND RELATED NOTES





                  - 37 -
This page intentionally left blank. 





           - 38 -
                                                   U.S. Department of Justice

                                                Federal Bureau of Investigation

                                                  Consolidated Balance Sheets

                                               As of September 30, 2013 and 2012


Dollars in Thousands                                                                       2013              2012

ASSETS (Note 2)
   Intragovernmental
       Fund Balance with U.S. Treasury (Note 3)                              $        2,896,019     $    3,601,365
       Accounts Receivable (Note 5)                                                     319,723            143,146
       Other Assets (Note 9)                                                             22,779             30,187
   Total Intragovernmental                                                            3,238,521          3,774,698

   Cash and Monetary Assets (Note 4)                                                    85,326              67,135
   Accounts Receivable, Net (Note 5)                                                    24,088              27,069
   Inventory and Related Property, Net (Note 6)                                          7,263               7,310
   General Property, Plant and Equipment, Net (Note 8)                               2,713,644           2,811,251
   Advances and Prepayments                                                             18,423              48,789
Total Assets                                                                 $      6,087,265       $   6,736,252

LIABILITIES (Note 10)
   Intragovernmental
       Accounts Payable                                                      $          188,580     $     183,590
       Accrued Federal Employees' Compensation Act Liabilities                           31,303            31,101
       Other Liabilities (Note 14)                                                       57,541            99,996
   Total Intragovernmental                                                              277,424           314,687

   Accounts Payable                                                                    323,056             462,174
   Actuarial Federal Employees' Compensation Act Liabilities                           191,516             176,422
   Accrued Payroll and Benefits                                                         84,948             213,448
   Accrued Annual and Compensatory Leave Liabilities                                   273,017             277,074
   Environmental and Disposal Liabilities (Note 11)                                     10,451              10,219
   Seized Cash and Monetary Instruments (Note 13)                                       46,371              45,262
   Contingent Liabilities (Note 15)                                                      8,420              11,788
   Other Liabilities (Note 14)                                                           7,669               6,342
Total Liabilities                                                            $      1,222,872       $   1,517,416

NET POSITION
   Unexpended Appropriations                                                 $       1,822,476      $    2,151,355
   Cumulative Results of Operations                                                  3,041,917           3,067,481
Total Net Position                                                           $      4,864,393       $   5,218,836

Total Liabilities and Net Position                                           $      6,087,265       $   6,736,252




Federal Bureau of Investigation                        - 39 -
                       The accompanying notes are an integral part of these financial statements.
                                                                          U.S. Department of Justice

                                                                        Federal Bureau of Investigation

                                                                     Consolidated Statements of Net Cost

                                                           For the Fiscal Years Ended September 30, 2013 and 2012


Dollars in Thousands

                                                 Gross Costs                                               Less: Earned Revenues                               Net Cost of
                           Intra-                 With the                                         Intra-          With the                                    Operations
             FY         governmental               Public                  Total                governmental        Public                  Total               (Note 16)

Goal 1      2013       $       1,361,909     $         3,649,619     $        5,011,528     $         457,250     $         16,344     $       473,594     $           4,537,934
            2012       $       1,424,724     $         3,917,146     $        5,341,870     $         458,969     $          1,870     $       460,839     $           4,881,031

Goal 2      2013                 829,830               2,199,434              3,029,264               342,743                  397             343,140                 2,686,124
            2012                 790,598               2,173,677              2,964,275               340,061                    -             340,061                 2,624,214

Goal 3      2013                 254,103                 798,910              1,053,013               358,899              154,485             513,384                  539,629
            2012                 280,253                 770,530              1,050,783               334,507              151,387             485,894                  564,889

Total       2013       $      2,445,842      $        6,647,963      $       9,093,805      $       1,158,892     $      171,226       $    1,330,118      $       7,763,687
            2012       $      2,495,575      $        6,861,353      $       9,356,928      $       1,133,537     $      153,257       $    1,286,794      $       8,070,134



Goal 1    Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
Goal 2    Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
Goal 3    Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal and International Levels




Federal Bureau of Investigation                                                          - 40 -
                                                 The accompanying notes are an integral part of these financial statements.
                                              U.S. Department of Justice

                                            Federal Bureau of Investigation

                                 Consolidated Statements of Changes in Net Position

                               For the Fiscal Years Ended September 30, 2013 and 2012


      Dollars in Thousands                                                        2013                   2012




      Unexpended Appropriations
       Beginning Balances                                           $      2,151,355           $   2,194,512

        Budgetary Financing Sources
         Appropriations Received                                             8,276,009               8,117,973
         Appropriations Transferred-In/Out                                    (134,901)                (60,821)
         Other Adjustments                                                    (730,365)                      -
         Appropriations Used                                                (7,739,622)             (8,100,309)

        Total Budgetary Financing Sources                                   (328,879)                (43,157)

        Unexpended Appropriations                                   $      1,822,476           $   2,151,355

      Cumulative Results of Operations
       Beginning Balances                                           $      3,067,481           $   2,760,450
       Adjustments (Note 22)
        Changes in Accounting Principles                                     (237,177)                     -
       Beginning Balances, as Adjusted                                     2,830,304               2,760,450

        Budgetary Financing Sources
         Appropriations Used                                                 7,739,622               8,100,309
         Nonexchange Revenues                                                        2                       -
         Transfers-In/Out Without Reimbursement                                 (7,329)                      -

        Other Financing Sources
         Transfers-In/Out Without Reimbursement                                 (7,803)                 5,333
         Imputed Financing from Costs Absorbed
           by Others (Note 17)                                                 256,974                276,722
         Other Financing Sources                                                (6,166)                (5,199)

        Total Financing Sources                                            7,975,300               8,377,165

        Net Cost of Operations                                            (7,763,687)              (8,070,134)

        Net Change                                                             211,613                307,031

        Cumulative Results of Operations                            $      3,041,917           $   3,067,481

      Net Position                                                  $      4,864,393           $   5,218,836


Federal Bureau of Investigation                       - 41 -
                      The accompanying notes are an integral part of these financial statements.
                                                    U.S. Department of Justice

                                                  Federal Bureau of Investigation

                                          Combined Statements of Budgetary Resources

                                     For the Fiscal Years Ended September 30, 2013 and 2012


Dollars in Thousands                                                                                    2013             2012

Budgetary Resources:

   Unobligated Balance, Brought Forward, October 1                                       $      1,099,469      $       947,534

   Recoveries of Prior Year Unpaid Obligations                                                    358,191              290,427
   Other Changes in Unobligated Balances                                                          (16,230)             (53,259)
   Unobligated Balance from Prior Year Budget Authority, Net                                    1,441,430            1,184,702
   Appropriations (discretionary and mandatory)                                                 7,419,644            8,110,411
   Spending Authority from Offsetting Collections (discretionary and mandatory)                 1,237,756            1,395,880
Total Budgetary Resources                                                                $   10,098,830        $   10,690,993

Status of Budgetary Resources:
   Obligations Incurred (Note 18)                                                        $      8,974,391      $     9,591,524
   Unobligated Balance, End of Period:
       Apportioned                                                                                831,392              624,435
       Unapportioned                                                                              293,047              475,034
   Total Unobligated Balance - End of Period                                                    1,124,439            1,099,469
Total Status of Budgetary Resources                                                      $   10,098,830        $   10,690,993

Change in Obligated Balance:

   Unpaid Obligations:
      Unpaid Obligations, Brought Forward, October 1                                     $      3,072,245      $     3,165,268
      Obligations Incurred                                                                      8,974,391            9,591,524
      Outlays, Gross                                                                           (9,262,651)          (9,394,120)
      Recoveries of Prior Year Unpaid Obligations                                                (358,191)            (290,427)
      Unpaid Obligations, End of Period                                                         2,425,794            3,072,245
   Uncollected Payments:
      Uncollected Payments from Federal Sources, Brought Forward, October 1                      (568,468)            (492,704)
      Change in Uncollected Customer Payments from Federal Sources                                (49,058)             (75,764)
      Uncollected Customer Payments from Federal Sources                                         (617,526)            (568,468)
   Memorandum (non-add) Entries:
      Obligated Balance, Start of Period                                                 $     2,503,777       $    2,672,564
      Obligated Balance, End of Period                                                   $     1,808,268       $    2,503,777

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                              $      8,657,400      $     9,506,291
   Less: Actual Offsetting Collections (discretionary and mandatory)                            1,188,698            1,320,116
   Change in Uncollected Customer Payments from Federal Sources
      (discretionary and mandatory)                                                               (49,058)             (75,764)
   Budgetary Authority, Net (discretionary and mandatory)                                $     7,419,644       $    8,110,411

   Outlays, Gross (discretionary and mandatory)                                          $      9,262,651      $     9,394,120
   Less: Actual Offsetting Collections (discretionary and mandatory)                            1,188,698            1,320,116
   Outlays, Net (discretionary and mandatory)                                                   8,073,953            8,074,004
   Less: Distributed Offsetting Receipts                                                           (3,938)                 145
   Agency Outlays, Net (discretionary and mandatory)                                     $     8,077,891       $    8,073,859




Federal Bureau of Investigation                             - 42 -
                           The accompanying notes are an integral part of these financial statements.
               Notes to the Principal Financial Statements




                                U.S. DEPARTMENT OF JUSTICE

                             FEDERAL BUREAU OF INVESTIGATION

                            NOTES TO THE FINANCIAL STATEMENTS

                          (DOLLARS IN THOUSANDS, EXCEPT AS NOTED)


1.     Summary of Significant Accounting Policies

       A. Reporting Entity
       The Federal Bureau of Investigation (“FBI” or “Bureau”), established in 1908, is an integral part
       of the Department of Justice (DOJ or the Department). The mission of the FBI is to protect and
       defend the United States (U.S.) against terrorist and foreign intelligence threats, to uphold and
       enforce the criminal laws of the U.S., and to provide leadership and criminal justice services to
       federal, state, local, and international agencies and partners. The Bureau also provides assistance
       to other federal, state, and local law enforcement agencies and the public at large. Assistance
       includes forensic services, training law enforcement officials, background investigations, name
       checks, fingerprint analyses, and cooperative criminal investigations.
       The accompanying financial statements of the FBI include the following funds under the
       administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year
       Salaries and Expense (S&E) funds; appropriated no-year Construction (CNST) funds; and no-
       year Violent Crime Reduction Program (VCRP) trust funds. These funds include new
       appropriations, transfers of appropriations from other federal agencies, and the carry-over of prior
       years’ unobligated balances for multi-year and no-year appropriated funds. The FBI also receives
       reimbursable funding from other agencies for services rendered.

       B. Basis of Presentation
       These financial statements have been prepared from the books and records of the FBI in
       accordance with U.S. generally accepted accounting principles issued by the Federal Accounting
       Standards Advisory Board and presentation guidelines in the Office of Management and Budget
       (OMB) Circular A-136, Financial Reporting Requirements. These financial statements are
       different from the financial reports prepared pursuant to OMB directives used to monitor and
       control the use of the FBI’s budgetary resources. To ensure that the FBI financial statements are
       meaningful at the entity level and to enhance reporting consistency within the Department, Other
       Assets and Other Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. These include from Other Assets, Advances and Prepayments with the Public;
       and from Other Liabilities, Accrued Federal Employees’ Compensation Act Liabilities, Accrued
       Payroll and Benefits, Accrued Annual and Compensatory Leave Liabilities, Seized Cash and
       Monetary Instruments, and Contingent Liabilities.

       C. Basis of Consolidation
       The consolidated/combined financial statements include the accounts of the FBI. All significant
       proprietary intra-entity transactions and balances have been eliminated in consolidation. The
       Statements of Budgetary Resources are combined statements for Fiscal Years (FYs) 2013 and
       2012, and as such, intra-entity transactions have not been eliminated. The consolidated financial



Federal Bureau of Investigation                       - 43 -
                             These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       statements do not include centrally administered assets and liabilities of the federal government
       as a whole, such as General Services Administration (GSA) owned property and equipment, and
       borrowings from the public by the U.S. Department of the Treasury (Treasury), which may in part
       be attributed to the FBI.

       D. Basis of Accounting
       Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
       basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
       when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
       based upon legal considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial statements.

       E. Non-Entity Assets
       Non-entity assets represent assets temporarily controlled and administered by the FBI, but not
       available to the FBI as a financing source for operations. The FBI withholds state and local
       income taxes from taxable travel and transfer related expenses from FBI employees for
       subsequent disbursement to the applicable taxing authorities. Undisbursed withholdings at fiscal
       year-end are recorded as non-entity assets on the balance sheet with an offsetting liability. Cash
       temporarily held by the FBI as evidence for legal proceedings is also included on the balance
       sheet as a non-entity asset with an offsetting liability.

       F. Fund Balance with U.S. Treasury and Cash
       Fund balances with the Treasury primarily represent appropriated, revolving, and trust funds
       available to pay current liabilities and finance future authorized purchases of goods and services.
       Receipts are processed by commercial banks for deposit to individual accounts maintained at the
       Treasury. Treasury and other Treasury-designated disbursing officers process cash receipts and
       disbursements as directed by authorized FBI certifying officers. The FBI field offices and legal
       attachés maintain imprest and emergency funds to accommodate law enforcement cash
       requirements occurring outside normal banking system operating hours.

       G. Accounts Receivable
       Accounts receivable are established for reimbursable expenses incurred by the FBI in providing
       goods and services ordered by other entities. Intragovernmental accounts receivable represent
       amounts due from federal entities and agencies. Other receivables represent amounts due from
       state and local governments, individuals, and other non-federal entities.
       The Allowance for Uncollectible Accounts calculation methodology is a percentage based on
       outstanding receivables weighted against the collections rate of those receivables. An analytical
       review is conducted annually to update the percentage applied to outstanding receivables. An
       invoice is deemed delinquent if it is unpaid after 30 days. Intragovernmental receivables are
       considered fully collectible.




Federal Bureau of Investigation                      - 44 -
                            These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       H. Inventory and Related Property
       Operating materials and supplies consist of fuel, ammunition, spare aircraft parts, and office
       supplies. Operating materials and supplies are valued at acquisition cost. Supplies and materials
       are for entity use only, and are not for sale.

       I. General Property, Plant, and Equipment

       DOJ Financial Management Policy Memorandum (FMPM) 13-12, Capitalization of General
       Property, Plant and Equipment and Internal Use Software, was issued in FY 2013 with an
       effective date for reporting periods ending after September 30, 2014. Early implementation of the
       policy’s increased capitalized thresholds was encouraged beginning October 1, 2012. For
       financial statement purposes, the primary changes relate to the capitalization thresholds for real
       property including leasehold improvements, personal property, and internal use software (IUS)
       which results in a decrease to the overall Property, Plant, and Equipment (PP&E) balance.

       Below are the capitalization thresholds:
                Type of Property           FY 2013 Thresholds                FY 2012 Thresholds
             Real Property                                $250                             $100
             Personal Property                              $50                              $25
               Aircraft                                   $100                             $100
             Internal Use Software                       $5,000                            $500

       With the exception of land, all general PP&E is capitalized when the cost of acquiring or
       improving the property meets the new capitalization threshold noted in the table above and has a
       useful life of two or more years. All general PP&E is depreciated or amortized, based on
       historical cost, using the straight-line method over the estimated useful life of the asset. The FBI
       calculates a salvage value of 10 percent or less for capitalized property. Land is capitalized
       regardless of its acquisition cost and is never depreciated.

       Expenditures for property and equipment with an acquisition cost or individual asset recognition
       value less than the applicable threshold are charged to operating expenses as incurred. The FBI
       uses work-in-progress (WIP) accounts to capitalize expenditures associated with on-going
       leasehold improvement projects, the on-going construction of facilities and equipment, and the
       development of IUS that meet FBI’s capitalization thresholds. Upon completion of the project(s),
       the applicable costs are transferred from WIP to a depreciable asset.

       While the FBI owns some land, buildings, and other structures, it leases its headquarters building,
       field office buildings, and warehouse space from the GSA. The FBI also leases office space from
       non-governmental entities, both in the U.S. and abroad.

       J. Advances and Prepayments
       Advances and prepayments classified as assets include funds disbursed to finance operations that
       exceed the total expenditures incurred. This amount also includes advances of funds to federal
       employees for official travel, and the balance of travel advances in excess of travel expenses

Federal Bureau of Investigation                      - 45 -
                            These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       claimed on reimbursement vouchers. When authorized by procurement regulations, payments
       made in advance of the FBI’s receipt of goods and services are recorded as prepaid charges at the
       time of prepayment and recognized as expenditures/expense when the related goods and services
       are received. Advances and prepayments involving other federal agencies are classified as Other
       Assets on the balance sheet.

       K. Seized Property
       All property seized for forfeiture, including property with evidentiary value, is reported by the
       DOJ Assets Forfeiture Fund and Seized Asset Deposit Fund. The FBI has an established
       reporting threshold of $1 or more for Personal Property seized for evidentiary purposes. The FBI
       reports each seized personal property evidence record as a single unit of measure.
       Cash in the custody of the FBI for evidentiary purposes is recognized as an asset on the balance
       sheet with an offsetting liability. Non-monetary valuable property held as evidence is disclosed
       in Note 7 at the appraised or fair market value at the time of the seizure and is not adjusted to any
       subsequent increases and decreases in estimated fair market value. It is not recognized as an asset
       on the balance sheet.
       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 7 in accordance
       with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for
       Inventory and Related Property, and Federal Financial Accounting and Auditing Technical
       Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Reported quantities of
       drugs include only substances over one kilogram (KG) that are laboratory-analyzed and
       confirmed.

       L. Liabilities
       Liabilities represent the amount of monies or other resources likely to be paid by the FBI as the
       result of a transaction or an event that has already occurred. However, absent proper budget
       authority, the FBI cannot pay a liability. Liabilities for which an appropriation has not been
       enacted are considered unfunded liabilities. As a result, there is no certainty that corresponding
       future appropriations will be enacted to liquidate these unfunded liabilities.

       M. Contingencies and Commitments
       The FBI is party to various administrative proceedings, legal actions, and claims. The balance
       sheet includes an estimated liability for those legal actions where management and the Chief
       Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
       actions where management and the Chief Counsel consider adverse decisions “probable” or
       “reasonably possible” and the amounts are reasonably estimable are disclosed in Note 15,
       Contingencies and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated or the
       likelihood of an unfavorable outcome is considered “remote.”




Federal Bureau of Investigation                      - 46 -
                            These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       N. Annual, Sick, and Other Leave
       Annual leave and compensatory leave are expensed as earned with an offsetting liability.
       Liabilities are reduced as leave is taken. At the end of each fiscal quarter, the balance in the
       accrued annual leave liability account is adjusted to reflect valuation at current pay rates. To the
       extent current-year or prior-year appropriations are not available to fund annual and
       compensatory leave that is earned but not taken, funding will be obtained from future financing
       sources. Sick leave and other types of non-vested leave are expensed as taken.

       O. Interest on Late Payments
       Pursuant to the Prompt Payment Act of 1999 (31 U.S.C. 3901-3907), the FBI pays interest to
       commercial concerns for payments made after the payment due date. The payment due date is
       generally 30 days after the receipt of a valid invoice by the designated activity, or 30 days after
       the receipt and acceptance of the goods or services, whichever is later. Interest is computed on
       the principal amount due at the rate of interest established by the Secretary of the Treasury, and
       published in the Federal Register, for interest payments under section 12 of the Contract Disputes
       Act of 1978 (41 U.S.C. 611). Interest is paid for the period beginning one day after the principal
       payment due date and ending on the date on which the principal payment is made.

       P. Retirement Plans
       With few exceptions, employees of the Department are covered by one of the following
       retirement programs:
               1) Employees hired before January 1, 1984, are covered by the Civil Service Retirement
               System (CSRS). For employees covered by the CSRS, the FBI contributes 7.0 percent of
               the support employees’ gross pay for normal retirement and for agents 7.5 percent for law
               enforcement officers’ retirement.
               2) Employees hired after January 1, 1984 and before December 31, 2012, are covered by
               the Federal Employees Retirement System (FERS). For employees covered by the FERS,
               the FBI contributes 11.9 percent of the support employees’ gross pay and for agents 26.3
               percent for law enforcement officers’ retirement.
               3) Employees hired after January 1, 2013, are covered by the Federal Employees
               Retirement System-Revised Annuity Employees (FERS-RAE) System. For employees
               covered by FERS-RAE, the FBI contributes 9.6 percent of the employees’ gross pay for
               regular and 24.0 percent for law enforcement officers’ retirement.
       The accompanying financial statements report expenses incurred by the FBI for required
       contributions made to retirement accounts administered by the Office of Personnel Management
       (OPM). All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP). For
       employees covered by the FERS and FERS-RAE, a TSP account is automatically established to
       which the FBI is required to contribute an additional 1.0 percent of gross pay and matches
       employee contributions up to 4.0 percent. No contributions are made to the TSP accounts
       established by the CSRS employees. The FBI’s financial statements do not report CSRS or
       FERS assets, accumulated plan benefits, or unfunded liabilities, if any, which may be applicable
       to its employees. Such reporting is the responsibility of OPM. SFFAS No. 5, Accounting for
       Liabilities of the Federal Government, requires employing agencies to recognize the cost of

Federal Bureau of Investigation                       - 47 -
                             These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       pensions and other retirement benefits during their employees’ active years of service. Refer to
       Note 17, Imputed Financing from Costs Absorbed by Others, additional details.
       The FBI is not authorized to make automatic or matching contributions to the TSP for employees
       covered by the CSRS. The FBI recognizes an additional expense and an offsetting imputed
       financing source for FBI Pension and Other Retirement Benefits Expense not covered by
       employee and FBI contributions; this expense is ultimately paid by OPM.

       Q. Federal Employee Compensation Benefits
       The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
       to covered federal civilian employees injured on the job, employees who have incurred a work-
       related occupational disease, and beneficiaries of any employee whose death is attributable to a
       job-related injury or occupational disease. Claims incurred for benefits for FBI employees under
       FECA are administered by the Department of Labor (DOL) and are ultimately paid by the FBI.
       The total FECA liability has two components: (1) unpaid billings and (2) an amount of estimated
       unbilled claims. Unpaid billings represent claims already paid by the DOL, which have not yet
       been reimbursed by the FBI. There is generally a two-year delay in the processing of the DOL
       payments through DOJ to the FBI. The FBI reports the unpaid billings as Accrued FECA
       Liabilities.
       Unbilled claims are estimated by the DOL by applying actuarial projections to incurred (both
       reported and unreported) claims. The DOL calculates the actuarial liability of the federal
       government for future compensation benefits, which includes the expected liability for death,
       disability, medical, and miscellaneous approved compensation costs. The liability is determined
       using the paid-losses extrapolation method calculated over the next 37-year period. This method
       uses historical benefit payment patterns related to a specific incurred period to predict the
       ultimate payments related to that period. The projected annual benefit payments were discounted
       to present value. The resulting federal government liability is then distributed by the DOL to the
       respective departments.
       DOJ calculates and distributes each bureau’s respective portion of the total DOJ actuarial liability
       that is recorded for reporting purposes only. The Actuarial FECA Liability constitutes an
       extended estimate of future costs that will be obligated against budgetary resources the fiscal year
       in which the cost is actually paid to DOL by DOJ and, subsequently, by the FBI.

       R. Intragovernmental Activity
       Intragovernmental cost and exchange revenue represents transactions made between two
       reporting entities within the federal government. Costs and exchange revenues with the public
       represent transactions made between the reporting entity and a non-federal entity. The
       classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
       transaction-by-transaction basis. The purpose of this classification is to enable the federal
       government to prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and intragovernmental
       revenue.




Federal Bureau of Investigation                      - 48 -
                            These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       S. Revenues and Other Financing Sources
       The FBI receives funding to support its programs and executes its assigned mission from three
       primary sources: (1) annual, no-year, and multi-year appropriations by the U.S. Congress; (2)
       appropriated funds transferred to the FBI; and (3) reimbursable program funding. Appropriated
       funds (appropriated to the FBI or appropriated to other federal entities and transferred to the FBI
       for execution) represent the majority of the FBI’s operating budget.
       A source of revenue to the FBI are fees authorized by law for providing fingerprint-based and
       name-based Criminal History Record Information checks and other identification services
       submitted by authorized users for noncriminal justice purposes, including employment and
       licensing. The fee is based on full-cost recovery, determined by using an activity-based cost
       model. By law, the FBI may set such fees at a level to include an additional amount to establish a
       fund to defray expenses for the automation of fingerprint identification and criminal justice
       information services and associated costs. Fee schedules are announced in the Federal Register
       following a public comment period. The FBI is not authorized to charge fees for fingerprint
       identification and criminal justice information services for law enforcement purposes.
       Other financing sources to the FBI include assets transferred to the FBI without reimbursement
       and imputed financing for: (1) FBI pension and other benefits expenses not covered by employee
       and FBI contributions and which are ultimately paid by OPM; and (2) expenses for legal claims
       paid out of the Treasury Judgment Fund on behalf of the FBI.
       Appropriations are recognized as financing sources when the goods and services authorized to be
       paid from the appropriations have been received and accepted, or when program or administrative
       expenses have been incurred. Revenue from reimbursable activities is recognized when it is
       earned, i.e. when the goods or services ordered have been delivered or rendered to the ordering
       entity. The FBI also earns revenue from the sale of assets, principally vehicles.

       T. Funds from Dedicated Collections
       SFFAS No. 27, Identifying and Reporting Funds from Dedicated Collections, as amended defines
       ‘funds from dedicated collections’ as being financed by specifically identified revenues, provided
       to the government by non-federal sources, often supplemented by other financing sources, which
       remain available over time. These specifically identified revenues and other financing sources
       are required by statute to be used for designated activities, benefits, or purposes, and must be
       accounted for separately from the government’s general revenues. The three required criteria for
       a fund from dedicated collections are:
           1.	 A statute committing the federal government to use specifically identified revenues
               and/or other financing sources that are originally provided to the federal government by a
               non-federal sources only for designated activities, benefits, or purposes;
           2.	 Explicit authority for the funds to retain revenues and/or other financing sources not used
               in the current period for future use to finance the designated activities, benefits, or
               purposes; and
           3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
               and/or other financing sources that distinguishes the fund from the federal government’s
               general revenues.


Federal Bureau of Investigation                      - 49 -
                            These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       There are no funds that meet the definition of funds from dedicated collections.

       U. Tax Exempt Status
       As an agency of the federal government, the FBI is exempt from all income taxes imposed by any
       governing body whether it is a federal, state, commonwealth, local, or foreign government.

       V. Use of Estimates
       The preparation of financial statements requires management to make estimates and assumptions
       that affect the reported amounts of assets and liabilities and the reported amounts of revenue and
       expenses during the reporting period. Actual results could differ from those estimates.

       W. Reclassifications
       The FY 2012 financial statements were reclassified to conform to the FY 2013 Departmental and
       OMB financial statement presentation requirements. The changes to the presentation of the
       Combined and Combining Statements of Budgetary Resources were made in accordance with
       guidance provided in OMB Circular A-136, Financial Reporting Requirements, and as such,
       activity and balances reported on the FY 2012 Combined and Combining Statement of Budgetary
       Resources have been reclassified to conform to the presentation in the current year. The
       reclassifications had no material effect on total assets, liabilities, net position, change in net
       position or budgetary resources as previously reported.

       X. Subsequent Events
       Subsequent events and transactions occurring after September 30, 2013 through the date of the
       auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
       statements. The date of the auditors’ opinion also represents the date that the financial statements
       were available to be issued.




Federal Bureau of Investigation                        - 50 -
                              These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


2.      Non-Entity Assets
Non-entity assets are assets that are held by the FBI but are not available for its use.


           As of September 30, 2013 and 2012
                                                                             2013                 2012
           Intragovernmental
             Fund Balance with U.S. Treasury                         $          2,550         $          576

           With the Public
            Cash and Monetary Assets                                            52,113               48,302
              Total Non-Entity Assets                                           54,663               48,878
              Total Entity Assets                                            6,032,602            6,687,374
              Total Assets                                           $       6,087,265        $   6,736,252


3.      Fund Balance with U.S. Treasury


           As of September 30, 2013 and 2012
                                                                               2013               2012
           Fund Balances
             General Funds                                               $     2,899,382      $   3,600,789
             Other Fund Types                                                     (3,363)               576
              Total Fund Balances with U.S. Treasury                     $     2,896,019      $   3,601,365

           Status of Fund Balances
             Unobligated Balance - Available                             $       831,392      $     624,435
             Unobligated Balance - Unavailable                                   293,047            475,034
             Obligated Balance not yet Disbursed                               1,808,268          2,503,777
             Other Funds (With)/Without Budgetary Resources                      (36,688)            (1,881)
               Total Status of Fund Balances                             $     2,896,019      $   3,601,365


The General Funds amount includes the remaining funds resulting from budget authority to pay valid
obligations. Other Fund Types amount includes deposit, clearing, and suspense accounts temporarily
held with Treasury until such time they are required for use.
Unobligated Balance - Available includes current year apportionments that may be used for new
obligations. Unobligated Balance - Unavailable includes amounts appropriated in prior fiscal years that
are no longer available to fund new obligations, but can be used for upward and/or downward adjustments
for existing obligations. Additionally, this line includes amounts received that are restricted to future use
and as a result are not apportioned for current use. Obligated Balance not yet Disbursed includes
obligations of appropriated funds and obligations related to reimbursable activity. Other Funds
(With)/Without Budgetary Resources includes deposit, clearing, and suspense accounts.


Federal Bureau of Investigation                        - 51 -
                              These notes are an integral part of the financial statements.
                Notes to the Principal Financial Statements


4.      Cash and Monetary Assets


           As of September 30, 2013 and 2012
                                                                       2013                      2012
           Cash
            Undeposited Collections                              $           (119)           $     16,370
            Imprest Funds                                                  33,329                   2,461
            Other Cash                                                      5,745                   3,042
              Total Cash                                                   38,955                  21,873



           Monetary Assets
            Seized Monetary Instruments                                    46,371                  45,262
              Total Cash and Monetary Assets                     $         85,326            $     67,135


Undeposited Collections includes various in-transit accounts where account activities have been
processed in the FBI’s Financial Management System and Unified Financial Management System, but
not deposited in the bank and reported to Treasury via the Classification Transaction and Accountability
Report (formerly SF-224) monthly submission. The Undeposited Collections balance represents timing
differences in the recording of transactions between the FBI and Treasury.
Imprest Funds reflects monies dedicated for operational support, such as petty cash and emergency funds.
Other Cash consists of project generated proceeds.
Seized Monetary Instruments represents cash evidence obtained during FBI investigations held pending
release to the rightful owners.




Federal Bureau of Investigation                       - 52 -
                             These notes are an integral part of the financial statements.
                Notes to the Principal Financial Statements


5.      Accounts Receivable, Net


           As of September 30, 2013 and 2012
                                                                       2013                          2012
           Intragovernmental
             Accounts Receivable                                $         319,723            $        143,146

           With the Public
            Accounts Receivable                                            24,099                      28,343
            Allowance for Uncollectible Accounts                              (11)                     (1,274)
              Total With the Public                                        24,088                      27,069
              Total Accounts Receivable, Net                    $         343,811            $        170,215


Intragovernmental receivables are based on services provided to other federal agencies for activities such
as name checks, requests for international travel, and training. The significant types of receivables
reported in With the Public include the Non-Federal User Fee Program and the National Name Check
Program. These customers are typically state and local government agencies conducting background
checks on individuals.


6.      Inventory and Related Property, Net


          As of September 30, 2013 and 2012
                                                                            2013                      2012

          Operating Materials and Supplies
            Held for Current Use                                      $          7,263           $          7,310




7.      Seized Property
Analysis of Change in Seized Property:
Seized Monetary Instruments (see also Notes 4 and 13) includes cash held by the FBI as evidence for
legal proceedings, and is reported on the balance sheet as an asset, with an offsetting liability. Non-
monetary evidence includes art, jewelry, and other valuables (see Note 1.K). According to DOJ
guidelines, evidence items subject to forfeiture are not disclosed by the seizing agency.
The item counts and financial value of non-monetary valuable property in the custody of the FBI as of
September 30, 2013 and September 30, 2012, excluding forfeited property for evidentiary purposes, and
activity during each fiscal year are summarized in the following charts in accordance with SFFAS No. 3,
Accounting for Inventory and Related Property.


Federal Bureau of Investigation                       - 53 -
                             These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


7.      Seized Property (continued)
Drug evidence is presented in accordance with Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Analyzed drug evidence
represents actual laboratory-tested classification and weight in KG. Since enforcement of the controlled
substances laws and regulations of the U.S. is incidental to the mission of the FBI, only individual
seizures exceeding one KG in weight are reported.
“Other” primarily consists of substances, both controlled and non-controlled as defined per the Controlled
Substances Act, other than cocaine, heroin, marijuana, or methamphetamine. The actual drug weight may
vary from seizure weight due to changes in moisture content over time.
Unanalyzed drug evidence is not reported by the FBI because it is neither weighed nor confirmed by
laboratory chemists. Seized drug evidence must be analyzed and confirmed through laboratory testing to
be placed in one of the five categories of drugs above.
“Disposals” occur when evidence is either returned to the owner or destroyed in accordance with federal
guidelines.

         For the Fiscal Year Ended September 30, 2013

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       45,262 $        (5,828) $       23,324 $       (16,387) $        46,371

           Personal Property      Number             1,359              -              188            (429)           1,118
                                  Value  $          29,732 $          (69) $         6,262 $        (8,503) $        27,422

           Non-Valued
            Firearms              Number            29,705          (2,372)          4,373          (2,789)          28,917
            Drug Evidence
               Cocaine            KG                 6,230             949             178            (995)           6,362
               Heroin             KG                   425               4              12             (27)             414
               Marijuana          KG                 3,556             168              25            (423)           3,326
               Methamphetamine    KG                   677              54             221             (79)             873
               Other              KG                   998              14              27              (7)           1,032
           Total Drug Evidence                      11,886           1,189             463          (1,531)          12,007




Federal Bureau of Investigation                               - 54 -
                                  These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


7.      Seized Property (continued)

         For the Fiscal Year Ended September 30, 2012

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       42,880 $        (2,180) $       28,200 $       (23,638) $        45,262

           Personal Property      Number             1,342             45              310            (338)           1,359
                                  Value  $          35,931 $         (308) $         9,545 $       (15,436) $        29,732

           Non-Valued
            Firearms              Number            29,383          (1,101)          3,809          (2,386)          29,705
            Drug Evidence
               Cocaine            KG                 6,144           (241)             605            (278)           6,230
               Heroin             KG                   418              -               16              (9)             425
               Marijuana          KG                 3,689           (127)              69             (75)           3,556
               Methamphetamine    KG                   546            (11)             163             (21)             677
               Other              KG                 1,080            (72)              21             (31)             998
           Total Drug Evidence                      11,877           (451)             874            (414)          11,886


**Adjustments include property status and valuation changes received after, but properly credited to,
prior fiscal years. Valuation changes include updates and corrections to an asset’s value recorded in a
prior year.


Method of Disposition of Seized Property:
During FYs 2013 and 2012, $12,271 and $14,387 were returned to parties with a bonafide interest, and
$12,619 and $24,687 were either released to a designated party or transferred to the appropriate federal
entity under forfeiture or abandonment proceedings. Non-valued property was primarily disposed of
through destruction.




Federal Bureau of Investigation                               - 55 -
                                  These notes are an integral part of the financial statements.
                    Notes to the Principal Financial Statements


8.        General Property, Plant and Equipment, Net
Based upon early implementation of DOJ FMPM 13-12, the FBI revised its method for reporting the
capitalization of real property, personal property, and IUS which caused a decrease in the PP&E balance
by $237,177, as described in Note 1I and Note 22.

     As of September 30, 2013
                                                                         Accumulated           Net Book         Useful
                                                  Acquisition Cost        Depreciation          Value            Life
     Land and Land Rights                         $          8,432       $            -      $       8,432       N/A
     Construction in Progress                              354,207                    -            354,207       N/A
     Buildings, Improvements, and Renovations              631,806            (293,766)            338,040   10-50 years
     Other Structures and Facilities                        35,828             (16,969)             18,859   10-50 years
     Aircraft                                              264,388             (68,916)            195,472    5-30 years
     Boats                                                   6,841              (2,697)              4,144    5-25 years
     Vehicles                                              124,426             (85,602)             38,824    2-25 years
     Equipment                                             726,491            (434,793)            291,698    2-25 years
     Leasehold Improvements                                578,526            (207,104)            371,422    3-10 years
     Internal Use Software                              1,198,114             (313,551)            884,563    3-10 years
     Internal Use Software in Development                  207,983                    -            207,983       N/A
     Total                                        $     4,137,042        $ (1,423,398)       $ 2,713,644


During FY 2013, the FBI purchased $52,213 in capital property from federal sources and $326,142 from
the public.

     As of September 30, 2012
                                                                         Accumulated           Net Book         Useful
                                                  Acquisition Cost        Depreciation          Value            Life
     Land and Land Rights                         $          8,901       $            -      $       8,901       N/A
     Construction in Progress                              385,171                    -            385,171       N/A
     Buildings, Improvements, and Renovations              582,810            (270,689)            312,121   10-50 years
     Other Structures and Facilities                        36,760             (11,130)             25,630   10-50 years
     Aircraft                                              261,055             (63,705)            197,350    5-30 years
     Boats                                                  10,155              (5,602)              4,553    5-25 years
     Vehicles                                              266,169            (173,938)             92,231    2-25 years
     Equipment                                             948,547            (524,688)            423,859    2-25 years
     Leasehold Improvements                                477,424            (165,672)            311,752    3-10 years
     Internal Use Software                                 953,869            (244,992)            708,877    3-10 years
     Internal Use Software in Development                  340,806                    -            340,806       N/A
     Total                                        $     4,271,667        $ (1,460,416)       $ 2,811,251


During FY 2012, the FBI purchased $123,890 in capital property from federal sources and $439,936 from
the public.




Federal Bureau of Investigation                             - 56 -
                                   These notes are an integral part of the financial statements.
                Notes to the Principal Financial Statements


9.      Other Assets


           As of September 30, 2013 and 2012
                                                                     2013                         2012
           Intragovernmental
             Advances and Prepayments                          $          22,779              $       30,187




10.     Liabilities not Covered by Budgetary Resources

          As of September 30, 2013 and 2012
                                                                                2013                  2012
          Intragovernmental
            Accrued FECA Liabilities                                       $        31,303        $      31,101
            Other Unfunded Employment Related Liabilities                              189                  278
              Total Intragovernmental                                               31,492               31,379

          With the Public
           Actuarial FECA Liabilities                                             191,516               176,422
           Accrued Annual and Compensatory Leave Liabilities                      273,017               277,074
           Environmental and Disposal Liabilities (Note 11)                        10,451                10,219
           Contingent Liabilities (Note 15)                                         8,420                11,788
             Total With the Public                                                483,404               475,503
             Total Liabilities not Covered by Budgetary Resources                 514,896               506,882
             Total Liabilities Covered by Budgetary Resources                     707,976             1,010,534
             Total Liabilities                                             $    1,222,872         $   1,517,416


Liabilities not Covered by Budgetary Resources reports the receipt of goods and services, or eligible
events in the current or prior periods, for which funds to pay the liabilities have not been made available
through appropriations to the FBI.


11.     Environmental and Disposal Liabilities
In accordance with SFFAS No. 5, SFFAS No. 6, Accounting for Property, Plant, and Equipment, and
Federal Financial Accounting and Auditing Technical Release No. 2, Determining Probable and
Reasonably Estimable for Environmental Liabilities in the Federal Government, federal agencies are
required to recognize liabilities for environmental cleanup costs when the future outflow or sacrifice of
resources is probable and reasonably estimable.




Federal Bureau of Investigation                        - 57 -
                              These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


11.     Environmental and Disposal Liabilities (continued)
As environmental-related cleanup costs are paid, the liabilities are reduced. Additionally, estimates will
be revised periodically to account for material changes due to inflation, technology, and applicable laws
and regulations. Any material changes in the estimated total cleanup costs will be expensed when
estimates are revised and the liability balance adjusted.
Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to develop
and enforce regulations to protect the general public from exposure to airborne contaminants known to be
hazardous to human health. On March 31, 1971, the EPA identified asbestos as a hazardous pollutant,
and on April 6, 1973, the EPA first promulgated the Asbestos National Emissions Standards for
Hazardous Air Pollutants.
The FBI exercises due care in determining the presence of contamination in adherence to the law, rules
and regulations and policies by the Clean Air Act. The Facilities and Logistics Service Division,
responsible for managing and maintaining FBI and non-FBI owned facilities, has identified FBI-owned
facilities in Quantico that contain hazardous friable and non-friable asbestos. The facilities have a useful
life of 50 years. The estimated total liability of $11,613 is based on the square footage of the facilities
that may be contaminated. This value, divided by the useful life and multiplied by the number of years in
service, is the estimated cleanup liability. As of September 30, 2013 and 2012, the FBI reported the
estimated cleanup liability of $10,451 and $10,219, respectively. The estimated asbestos cleanup liability
is increased each quarter by recording future funded expenses for the asbestos cleanup costs. During
FY 2013, future funded expense for asbestos cleanup is $232. There are no other potentially responsible
parties to the environmental liability and there are no unrecognized amounts to disclose as of
September 30, 2013.


12.     Leases
The majority of space occupied by the FBI is leased from the GSA. The rental cost is based on the area
occupied at the commercial rate per square foot, negotiated by the GSA along with appropriate GSA fees.
The majority of the leases are cancelable; however, if tenant improvement (TI) costs are amortized in the
lease and the FBI terminates prior to the end of the amortized period, the FBI will be responsible for the
unpaid TI costs.
Typically, the minimum lease term for a Resident Agency (RA) is 5 years and the maximum is 15 years.
The minimum lease term for a field office is 15 years and the maximum is 20 years.
The FBI has a long-range program to relocate all field offices into single tenant, stand-alone, secure
facilities. All new leases for field offices and some RAs will be noncancelable.
The FBI currently anticipates relocating 7 field offices between FY 2014 and FY 2018. When field
offices relocate, often from space leased for 20 years or longer, the rental rates increase significantly to
accommodate the FBI's growth in workforce, space needs, and specialized security requirements.




Federal Bureau of Investigation                        - 58 -
                              These notes are an integral part of the financial statements.
               Notes to the Principal Financial Statements


12.    Leases (continued)

         As of September 30, 2013

         Future Noncancelable Operating Lease Payments Due

                                                      Land and            Machinery and
         Fiscal Year                                  Buildings             Equipment            Total
           2014                                     $     203,662         $      23,395      $     227,057
           2015                                           224,199                21,351            245,550
           2016                                           235,619                 4,464            240,083
           2017                                           236,429                 4,598            241,027
           2018                                           236,107                 4,736            240,843
           After 2018                                   2,306,886                     -          2,306,886
            Total Future Noncancelable Operating
              Lease Payments                     $        3,442,902        $       58,544    $   3,501,446




13.    Seized Cash and Monetary Instruments
Seized Cash and Monetary Instruments represents liabilities for seized assets held by the FBI pending
disposition. The Seized Cash and Monetary Instruments as of September 30, 2013 and 2012 are $46,371
and $45,262, respectively.




Federal Bureau of Investigation                       - 59 -
                             These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


14.	    Other Liabilities
All Other Liabilities are current and presented in the following table:

          As of September 30, 2013 and 2012
                                                                                    2013                  2012
          Intragovernmental
            Employer Contributions and Payroll Taxes Payable                   $       26,637         $     66,432
            Other Post-Employment Benefits Due and Payable                                104                  294
            Other Unfunded Employment Related Liabilities                                 189                  278
            Advances from Others                                                       33,621               32,916
            Liability for Clearing Accounts                                            (3,161)                   ­
            Liability for Non-Entity Assets Not Reported
              on the Statement of Custodial Activity                                      151                   76
              Total Intragovernmental                                                  57,541               99,996

          With the Public
           Advances from Others                                                         1,884                2,818
           Liability for Clearing Accounts                                                 35                  482
           Custodial Liabilities                                                            5                    ­
           Other Liabilities                                                            5,745                3,042
             Total With the Public                                                      7,669                6,342
             Total Other Liabilities                                           $       65,210         $    106,338




15.	    Contingencies and Commitments


                                                   Accrued                     Estimated Range of Loss
                                                   Liabilities               Lower              Upper
           As of September 30, 2013
            Probable                           $          8,420         $           8,420        $	       14,010
            Reasonably Possible                                                     8,059                 11,287

           As of September 30, 2012
            Probable                           $         11,788         $          11,788        $	       18,083
            Reasonably Possible                                                    11,312                 16,667




Federal Bureau of Investigation                          - 60 -
                                These notes are an integral part of the financial statements.
                        Notes to the Principal Financial Statements


16.         Net Cost of Operations by Suborganization
The methodology by which the FBI allocates gross costs and earned revenue across the three Strategic
Goals (SGs or Goal) is consistent with the methodology used to allocate the FBI’s budget to the three SGs
in the FY 2014 Authorization and Budget Request to Congress. The tables below and on the next page
break out costs and revenue by these three SGs, as well as by FBI appropriation. These funds include
new appropriations, transfers of appropriations from other federal agencies, and the carry-over of prior
years’ unobligated balances for multi-year and no-year appropriated funds.

      For the Fiscal Year Ended September 30, 2013
                                                                                   Suborganizations
                                                               CNST                    VCRP                      S&E               Consolidated

      Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
       Gross Cost                                    $              60,012 $                      -       $          4,951,516 $          5,011,528
       Less: Earned Revenue                                               -                       -                    473,594              473,594
       Net Cost of Operations                                       60,012                        -                  4,477,922            4,537,934

      Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
       Gross Cost                                                       546                     -                    3,028,718            3,029,264
       Less: Earned Revenue                                               -                     -                      343,140              343,140
       Net Cost of Operations                                           546                     -                    2,685,578            2,686,124

      Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
              State, Local, Tribal, and International Levels
       Gross Cost                                                          173                       -                1,052,840           1,053,013
       Less: Earned Revenue                                                  -                       -                  513,384             513,384
       Net Cost of Operations                                              173                       -                  539,456             539,629

      Net Cost of Operations                            $              60,731 $                       -   $          7,702,956 $          7,763,687




Federal Bureau of Investigation                                         - 61 -
                                           These notes are an integral part of the financial statements.
                        Notes to the Principal Financial Statements


16.         Net Cost of Operations by Suborganization (continued)

      For the Fiscal Year Ended September 30, 2012
                                                                                   Suborganizations
                                                               CNST                    VCRP                      S&E               Consolidated

      Goal 1: Prevent Terrorism and Promote the Nation's Security Consistent with the Rule of Law
       Gross Cost                                    $              74,345 $                      -     $            5,267,525 $          5,341,870
       Less: Earned Revenue                                               -                       -                    460,839              460,839
       Net Cost of Operations                                       74,345                        -                  4,806,686            4,881,031

      Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
       Gross Cost                                                     6,721                     4                    2,957,550            2,964,275
       Less: Earned Revenue                                               -                     -                      340,061              340,061
       Net Cost of Operations                                         6,721                     4                    2,617,489            2,624,214

      Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
              State, Local, Tribal, and International Levels
       Gross Cost                                                        1,494                       -                1,049,289           1,050,783
       Less: Earned Revenue                                                  -                       -                  485,894             485,894
       Net Cost of Operations                                            1,494                       -                  563,395             564,889

      Net Cost of Operations                            $              82,560 $                       4 $            7,987,570 $          8,070,134




17.         Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the FBI from a providing federal
entity that is not part of the DOJ. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the FBI are the cost of future benefits for the Federal
Employees Health Benefits Program (FEHB), the Federal Employees Group Life Insurance Program
(FEGLI), and the federal pension plans that are paid by other federal entities, and any unreimbursed
payments made from the Treasury Judgment Fund on behalf of the FBI. The Treasury Judgment Fund
was established by Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments
and settlement agreements negotiated by the Department on behalf of agencies, as well as certain types of
administrative awards. Interpretation of Federal Financial Accounting Standards No. 2, Accounting for
Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and expense when
unfavorable litigation outcomes are probable and the amount can be estimated and will be paid by the
Treasury Judgment Fund.
SFFAS No. 5 requires that employing agencies recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits expected to be
paid in the future, and then determine the total funds to be contributed by and for covered employees,
such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 32.3 percent of basic pay for regular, 54.9 percent law
enforcement officers, 24.6 percent regular offset, and 48.1 percent law enforcement officers offset. For
employees covered by FERS, the cost factors are 14.2 percent of basic pay for regular and 30.7 percent
for law enforcement officers.


Federal Bureau of Investigation                                         - 62 -
                                           These notes are an integral part of the financial statements.
                Notes to the Principal Financial Statements


17.     Imputed Financing from Costs Absorbed by Others (continued)
For employees covered by FERS-RAE, the cost factors are 14.2 percent of basic pay for regular and 30.7
percent for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid
by other federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, are the unreimbursed portion of the full costs of
goods and services received by the FBI from a providing entity that is part of the DOJ. Recognition is
required for those transactions determined to be material to the receiving entity. The determination of
whether the cost is material requires considerable judgment based on the specific facts and circumstances
of each type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and integral part
of the operations or output of the receiving entity. Costs are considered broad and general if they are
provided to many, if not all, reporting components and not specifically related to the receiving entity’s
output. The FBI does not have any imputed intra-departmental financing sources.


           For the Fiscal Years Ended September 30, 2013 and 2012
                                                                 2013                            2012

           Imputed Inter-Departmental Financing
             Treasury Judgment Fund                                  $         2,165         $      8,262
             Health Insurance                                                159,877              178,189
             Life Insurance                                                      726                  685
             Pension                                                          94,206               89,586
               Total Imputed Financing                               $       256,974         $    276,722




18.     Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:
The apportionment categories are determined in accordance with the guidance provided in Part 4,
Instructions on Budget Execution, of OMB Circular A-11, Preparation, Submission and Execution of the
Budget. Category A represents resources apportioned for calendar quarters. Category B spending
includes funds appropriated for digital technology upgrades and construction funding for projects, such as:
the FBI’s Secure Work Environment Program, Biometrics Technology Center, Terrorist Explosive
Device Analytic Center, and the training facility at Quantico, Virginia. Category B also includes
mortgage fraud investigations, operations along the U.S. southwest border, Department of State funding,
Hurricane Sandy supplemental, Law Enforcement Wireless Communication funding, and supplemental
“bridged” funding including Overseas Contingency Operations, Render Safe mission, and FBI Laboratory
requirements.




Federal Bureau of Investigation                       - 63 -
                             These notes are an integral part of the financial statements.
                  Notes to the Principal Financial Statements


18.     Information Related to the Statement of Budgetary Resources (continued)

                                                                                        Reimbursable         Total Obligations
                                                              Direct Obligations         Obligations             Incurred
         For the Fiscal Year Ended September 30, 2013
           Obligations Apportioned Under:
             Category A                                        $      7,567,756     $        1,211,577       $      8,779,333
             Category B                                                 189,592                  5,466                195,058
           Total                                               $      7,757,348     $        1,217,043       $      8,974,391

         For the Fiscal Year Ended September 30, 2012
           Obligations Apportioned Under:
             Category A                                        $      8,119,683     $        1,321,482       $      9,441,165
             Category B                                                 150,359                      -                150,359
           Total                                               $      8,270,042     $        1,321,482       $      9,591,524


Status of Undelivered Orders:
Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.

          As of September 30, 2013 and 2012
                                                                                   2013                          2012
          UDO Obligations Unpaid                                            $       1,812,667            $        2,156,076
          UDO Obligations Prepaid/Advanced                                             41,204                        94,514
           Total UDO                                                        $       1,853,871            $        2,250,590


Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation based on annual legislative requirements and other enabling authorities,
unless otherwise restricted. The use of unobligated balances is restricted based on annual legislation
requirements and other enabling authorities. Funds are appropriated on an annual, multi-year, and no-
year basis. Appropriated funds shall expire on the last day of availability and are no longer available for
new obligations. Unobligated balances in unexpired fund symbols are available in the next fiscal year for
new obligations unless some restrictions have been placed on those funds by law. Amounts in expired
fund symbols are not available for new obligations, but may be used to adjust previously established
obligations.




Federal Bureau of Investigation                             - 64 -
                                   These notes are an integral part of the financial statements.
                 Notes to the Principal Financial Statements


18.     Information Related to the Statement of Budgetary Resources (continued)
Statement of Budgetary Resources vs. the Budget of the United States Government:
The Statement of Budgetary Resources versus the Budget of the U.S. Government as of September 30,
2012 is presented below.
The reconciliation as of September 30, 2013 is not presented because the submission of the Budget of the
United States Government (Budget) for FY 2015, which presents the execution of the FY 2013 Budget,
occurs after publication of these financial statements. The DOJ Budget Appendix can be found on the
OMB website (http://www.whitehouse.gov/omb/budget) and will be available in early February 2014.
Expired Funds are reported in the FBI’s Statement of Budgetary Resources, but not reported in the
Budget. The principal component of the amounts presented on the Other line are attributed to rounding.

         For the Fiscal Year Ended September 30, 2012
           (Dollars in Millions)
                                                                  Budgetary           Obligations
                                                                  Resources            Incurred               Net Outlays
         Statement of Budgetary Resources (SBR)                 $       10,691      $          9,592      $            8,074

         Funds not Reported in the Budget
           Expired Funds                                                  (412)                    (81)                    -

         Other                                                               2                       1

         Budget of the United States Government                $         10,281     $          9,512      $           8,074




19.     Net Custodial Revenue Activity
For the fiscal years ended September 30, 2013 and 2012, the FBI collected $877 and $10,736,
respectively, in restitution payments, seized abandoned cash, and project generated proceeds. These
collections were incidental to the FBI’s mission. Since the FBI does not have statutory authority to use
these funds, the FBI remits these funds upon receipt to the U.S. Treasury’s General Fund. As of
September 30, 2013 and 2012, the FBI did not have any custodial liabilities.




Federal Bureau of Investigation                             - 65 -
                                   These notes are an integral part of the financial statements.
                     Notes to the Principal Financial Statements


20.        Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
           Financing)

For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                                     2013              2012
Resources Used to Finance Activities
      Budgetary Resources Obligated
         Obligations Incurred                                                                $        8,974,391    $    9,591,524
         Less: Spending Authority from Offsetting Collections
                 and Recoveries                                                                       1,595,947         1,686,307
         Obligations Net of Offsetting Collections and Recoveries                                     7,378,444         7,905,217
         Less: Offsetting Receipts                                                                       (3,938)              145
         Net Obligations                                                                              7,382,382         7,905,072
    Other Resources
        Transfers-In/Out Without Reimbursement                                                           (7,803)            5,333
        Imputed Financing from Costs Absorbed by Others (Note 17)                                       256,974           276,722
        Other                                                                                            (6,166)           (5,199)
        Net Other Resources Used to Finance Activities                                                  243,005           276,856
Total Resources Used to Finance Activities                                                            7,625,387         8,181,928
Resources Used to Finance Items not Part of the Net Cost of
    Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
            and Benefits Ordered but not Yet Provided                                                  271,868           166,852
        Resources That Fund Expenses Recognized in Prior Periods (Note 21)                              (7,514)          (46,561)
        Budgetary Offsetting Collections and Receipts That do not
            Affect Net Cost of Operations                                                               (3,938)              145
        Resources That Finance the Acquisition of Assets                                              (378,308)         (563,033)
        Other Resources or Adjustments to Net Obligated Resources
            That do not Affect Net Cost of Operations                                                    (1,592)              1,579
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                                     (119,484)         (441,018)
Total Resources Used to Finance the Net Cost of Operations                                   $        7,505,903    $    7,740,910

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period

      Components That Will Require or Generate Resources
         in Future Periods (Note 21)                                                         $          15,622     $      18,424
      Depreciation and Amortization                                                                    252,726           295,457
      Revaluation of Assets or Liabilities                                                             (11,122)           18,593
      Other                                                                                                558            (3,250)
Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                                257,784           329,224
Net Cost of Operations                                                                       $        7,763,687    $    8,070,134




Federal Bureau of Investigation                               - 66 -
                                     These notes are an integral part of the financial statements.
                      Notes to the Principal Financial Statements


21.	        Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
            Components of Net Cost of Operations Requiring or Generating Resources in Future
            Periods
Liabilities that are not covered by realized budgetary resources and for which there is no certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities
not covered by budgetary resources. These liabilities totaling $514,896 and $506,882 as of September 30,
2013 and 2012, respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources.
Decreases in these liabilities result from current year budgetary resources that were used to fund expenses
recognized in prior periods. Increases in these liabilities represent unfunded expenses that were
recognized in the current period. These increases along with the change in the portion of exchange
revenue receivables from the public, which are not considered budgetary resources until collected,
represent components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and receivables
generating resources in future periods are comprised of the following:

       For the Fiscal Years Ended September 30, 2013 and 2012
                                                                                                     2013            2012
       Resources that Fund Expenses Recognized in Prior Periods
        Decrease in Accrued Annual and Compensatory Leave Liabilities                          $       (4,057)   $          -
        Other
          Decrease in Actuarial FECA Liabilities                                                            -          (6,004)
          Decrease in Contingent Liabilities                                                           (3,368)        (40,547)
          Decrease in Other Unfunded Employment Related Liabilities                                       (89)            (10)
            Total Resources that Fund Expenses Recognized in Prior Periods                     $       (7,514)   $    (46,561)

       Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
        Increase in Accrued Annual and Compensatory Leave Liabilities                         $            -     $      6,546
        Increase in Environmental and Disposal Liabilities                                               232              232
        (Increase)/Decrease in Exchange Revenue Receivable from the Public                             1,521            4,637
        Other
          Increase in Actuarial FECA Liabilities                                                      15,094                -
          Increase in Accrued FECA Liabilities                                                           202              272
          (Increase)/Decrease in Surcharge Revenue Receivable from Other Federal Agencies             (1,427)           6,737
            Total Other                                                                               13,869            7,009
            Total Components of Net Cost of Operations That Will Require or Generate
              Resources in Future Periods                                                     $       15,622     $     18,424




Federal Bureau of Investigation                                 - 67 -
                                     These notes are an integral part of the financial statements.
                Notes to the Principal Financial Statements


22.     Changes in Accounting Principles
Based upon early implementation of DOJ FMPM 13-12, the FBI revised its capitalization threshold for
real property, personal property, and IUS. The primary impact of the policy change was an increase in
the thresholds for capitalizing and reporting real property, including leasehold improvements, personal
property, and IUS. The change in accounting principle caused a $237,177 reduction in the overall PP&E
balance and the pre-FY 2013 effect is recognized in the FY 2013 beginning balance of Cumulative
Results of Operations on the Statements of Changes in Net Position. The effect of the new policy
reduced the FBI’s assets for PP&E as illustrated in the table below.
                        Type of Property                         Asset Value Adjustment
               Real Property                                                        $28,890
               Personal Property                                                    168,859
               Internal Use Software                                                 39,428
               Total                                                                        $237,177




Federal Bureau of Investigation                      - 68 -
                            These notes are an integral part of the financial statements.
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



   REQUIRED SUPPLEMENTARY INFORMATION
               (UNAUDITED)




                  - 69 -
                                                                         U.S. Department of Justice

                                                                       Federal Bureau of Investigation

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                                         By Major Appropriation

                                                                                Unaudited

                                                              For the Fiscal Year Ended September 30, 2013


Dollars in Thousands                                                                                                                                 2013
                                                                                           CNST              VCRP           S&E                 TOTAL

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                   $         96,689    $          -   $    1,002,780      $      1,099,469


   Recoveries of Prior Year Unpaid Obligations                                                 19,030               -          339,161              358,191
   Other Changes in Unobligated Balances                                                            -               -          (16,230)              (16,230)
   Unobligated Balance from Prior Year Budget Authority, Net                                  115,719               -        1,325,711             1,441,430
   Appropriations (discretionary and mandatory)                                                75,229               -        7,344,415             7,419,644
   Spending Authority from Offsetting Collections (discretionary and mandatory)                   266               -        1,237,490             1,237,756

Total Budgetary Resources                                                            $       191,214     $          -   $   9,907,616       $    10,098,830


Status of Budgetary Resources:
   Obligations Incurred                                                              $        114,649    $          -   $    8,859,742      $      8,974,391
   Unobligated Balance, End of Period:
     Apportioned                                                                               76,536               -          754,856              831,392
     Unapportioned                                                                                29                -          293,018              293,047
   Total Unobligated Balance - End of Period                                                   76,565               -        1,047,874             1,124,439
Total Status of Budgetary Resources                                                  $       191,214     $          -   $   9,907,616       $    10,098,830


Change in Obligated Balance:
   Unpaid Obligations:
     Unpaid Obligations, Brought Forward, October 1                                  $        316,771    $          -   $    2,755,474      $      3,072,245
     Obligations Incurred                                                                     114,649               -        8,859,742             8,974,391
     Outlays, Gross                                                                          (133,387)              -        (9,129,264)          (9,262,651)
     Recoveries of Prior Year Unpaid Obligations                                              (19,030)              -         (339,161)             (358,191)
     Unpaid Obligations, End of Period                                                        279,003               -        2,146,791             2,425,794
   Uncollected Payments:
     Uncollected Payments from Federal Sources, Brought Forward, October 1                          -               -         (568,468)             (568,468)
     Change in Uncollected Customer Payments from Federal Sources                                   -               -          (49,058)              (49,058)
     Uncollected Customer Payments from Federal Sources                                             -               -         (617,526)             (617,526)
   Memorandum (non-add) Entries:
     Obligated Balance, Start of Period                                              $       316,771     $          -   $   2,187,006       $     2,503,777
     Obligated Balance, End of Period                                                $       279,003     $          -   $   1,529,265       $     1,808,268

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                          $         75,495    $          -   $    8,581,905      $      8,657,400
   Less: Actual Offsetting Collections (discretionary and mandatory)                              266               -        1,188,432             1,188,698
   Change in Uncollected Customer Payments from Federal Sources
     (discretionary and mandatory)                                                                  -               -          (49,058)              (49,058)
   Budgetary Authority, Net (discretionary and mandatory)                            $        75,229     $          -   $   7,344,415       $     7,419,644


   Outlays, Gross (discretionary and mandatory)                                      $        133,387    $          -   $    9,129,264      $      9,262,651
   Less: Actual Offsetting Collections (discretionary and mandatory)                              266               -        1,188,432             1,188,698
   Outlays, Net (discretionary and mandatory)                                                 133,121               -        7,940,832             8,073,953
   Less: Distributed Offsetting Receipts                                                            -               -             (3,938)             (3,938)
   Agency Outlays, Net (discretionary and mandatory)                                 $       133,121     $          -   $   7,944,770       $     8,077,891




Federal Bureau of Investigation                                                   - 70 -
                                                                         U.S. Department of Justice

                                                                       Federal Bureau of Investigation

                                                                  Required Supplementary Information

                                                              Combining Statement of Budgetary Resources

                                                                         By Major Appropriation

                                                                                Unaudited

                                                              For the Fiscal Year Ended September 30, 2012


Dollars in Thousands                                                                                                                                  2012
                                                                                           CNST              VCRP             S&E                TOTAL

Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                   $        103,721    $           -    $      843,813     $       947,534


   Recoveries of Prior Year Unpaid Obligations                                                 16,728                -           273,699             290,427
   Other Changes in Unobligated Balances                                                            -                -            (53,259)            (53,259)
   Unobligated Balance from Prior Year Budget Authority, Net                                  120,449                -          1,064,253           1,184,702
   Appropriations (discretionary and mandatory)                                                80,982                -          8,029,429           8,110,411
   Spending Authority from Offsetting Collections (discretionary and mandatory)                     1                -          1,395,879           1,395,880

Total Budgetary Resources                                                            $       201,432     $           -    $   10,489,561     $    10,690,993


Status of Budgetary Resources:
   Obligations Incurred                                                              $        104,743    $           -    $     9,486,781    $      9,591,524
   Unobligated Balance, End of Period:
       Apportioned                                                                             96,688                -           527,747             624,435
       Unapportioned                                                                                1                -           475,033             475,034
   Total Unobligated Balance - End of Period                                                   96,689                -          1,002,780           1,099,469
Total Status of Budgetary Resources                                                  $       201,432     $           -    $   10,489,561     $    10,690,993


Change in Obligated Balance:
   Unpaid Obligations:
      Unpaid Obligations, Brought Forward, October 1                                 $        395,266    $          4     $     2,769,998    $      3,165,268
      Obligations Incurred                                                                    104,743                -          9,486,781           9,591,524
      Outlays, Gross                                                                         (166,510)              (4)        (9,227,606)         (9,394,120)
      Recoveries of Prior Year Unpaid Obligations                                             (16,728)                           (273,699)           (290,427)
      Unpaid Obligations, End of Period                                                       316,771                -          2,755,474           3,072,245
   Uncollected Payments:
      Uncollected Payments from Federal Sources, Brought Forward, October 1                         -                -           (492,704)           (492,704)
      Change in Uncollected Customer Payments from Federal Sources                                  -                -            (75,764)            (75,764)
      Uncollected Customer Payments from Federal Sources                                            -                -           (568,468)           (568,468)
   Memorandum (non-add) Entries:
      Obligated Balance, Start of Period                                             $       395,266     $          4     $    2,277,294     $     2,672,564
      Obligated Balance, End of Period                                               $       316,771     $           -    $    2,187,006     $     2,503,777

Budgetary Authority and Outlays, Net:
   Budgetary Authority, Gross (discretionary and mandatory)                          $         80,983    $           -    $     9,425,308    $      9,506,291
   Less: Actual Offsetting Collections (discretionary and mandatory)                                1                -          1,320,115           1,320,116
   Change in Uncollected Customer Payments from Federal Sources
       (discretionary and mandatory)                                                                -                -            (75,764)            (75,764)
   Budgetary Authority, Net (discretionary and mandatory)                            $        80,982     $           -    $    8,029,429     $     8,110,411


   Outlays, Gross (discretionary and mandatory)                                      $        166,510    $          4     $     9,227,606    $      9,394,120
   Less: Actual Offsetting Collections (discretionary and mandatory)                                1                -          1,320,115           1,320,116
   Outlays, Net (discretionary and mandatory)                                                 166,509               4           7,907,491           8,074,004
   Less: Distributed Offsetting Receipts                                                            -                -               145                 145
   Agency Outlays, Net (discretionary and mandatory)                                 $       166,509     $          4     $    7,907,346     $     8,073,859




Federal Bureau of Investigation                                                   - 71 -
This page intentionally left blank.




           - 72 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



         OTHER INFORMATION
            (UNAUDITED)




               - 73 -
This page intentionally left blank. 





           - 74 -
                                           U.S. Department of Justice

                                         Federal Bureau of Investigation

                                                  Other Information

                                           Combined Schedule of Spending

                                                      Unaudited

                                    For the Fiscal Year Ended September 30, 2013


           Dollars in Thousands                                                     2013



           What Money is Available to Spend?
           Total Resources                                              $      10,098,830
           Less Amount Available but Not Agreed to be Spent                       831,392
           Less Amount Not Available to be Spent                                  293,047
           Total Amounts Agreed to be Spent                             $      8,974,391

           How was the Money Spent?
           Personnel Compensation and Benefits
               11xx Personnel Compensation                              $       3,577,452
               12xx Personnel Benefits                                          1,435,752
               13xx Former Personnel                                                  428
           Other Program Related Expenses
               21xx Travel and Transportation of Persons                          186,036
               22xx Transportation of Things                                       21,543
               23xx Rent, Communications, and Utilities                           912,170
               24xx Printing and Reproduction                                       3,235
               25xx Other Contractual Services                                  2,200,697
               26xx Supplies and Materials                                        142,420
               31xx Equipment                                                     417,398
               32xx Land and Structures                                            73,210
               42xx Insurance Claims and Indemnities                                3,858
               43xx Interest and Dividends                                            192
           Total Amounts Agreed to be Spent                             $      8,974,391

           Who did the Money go to?
              For Profit                                                $       3,837,613
              Government                                                           91,577
              Employees                                                         4,912,151
              Other                                                               133,050
           Total Amounts Agreed to be Spent                             $      8,974,391




Federal Bureau of Investigation
                                              - 75 -
